 Office of the
 Inspector General
   Semiannual Report
   to the Congress

April 1, 1997 -- September 30, 1997
                                   FOREWORD

      I am again pleased to report on the significant accomplishments achieved by the
men and women of the Office of the Inspector General, Department of Defense. Their
work, combined with that of others in the DoD oversight community, continues to help
ensure integrity and credibility in Government while providing the Department’s leaders
with information critical to key management decisions. Our investigators, auditors and
evaluators have not only responded to an increasing number of management and
Congressional requests, but also successfully addressed proactive initiatives in areas of
critical concern to the Department.
     During this time of dramatic change within the DoD, the OIG has worked closely
with senior management through scores of process action teams to adequately address
the many challenges and risks that necessarily accompany reform of the Department’s
programs and operations. While we continue to detect and pursue fraud, waste and abuse
that has already occurred, we are also actively helping management to identify ways to
prevent these problems in the future.
     All of this has occurred at a time of continued downsizing for the OIG. Despite a
history of substantial monetary return to the Department, the OIG is now scheduled to
be reduced approximately 37 percent by fiscal year 2001 from its fiscal year 1995 level.
Undoubtedly, that reduction will dramatically diminish our ability to provide adequate
oversight for the Department, at a time of increased procurement spending.
     Chapter One of this report reviews the oversight community’s efforts to assist senior
managers in reducing high risk vulnerabilities in Information Management and
Technology, Financial Management, Acquisition and Infrastructure. As first presented
in our last report, we have again selected Special Emphasis Areas for detailed discussion.
In this report, we focus on the critical areas of Readiness, Property Disposal and Senior
Official Investigations.
    Chapter Two summarizes the significant activities of our audit, investigative and
oversight functions throughout the operations of the Department. Highlights include:
        l   DoD internal audit organizations identified over $422.7 million in funds that
            could be put to better use immediately or during the Future Years Defense
            Program period;

        l   DoD contract auditors took exception to over $1.325 billion and identified
            nearly $2.355 billion in funds that could be put to better use; and




                                             i
       l    DoD criminal investigators’ efforts in procurement and health care fraud
           investigations resulted in 108 criminal indictments and $128.7 million in
           monetary recoveries and fines.
     These accomplishments clearly demonstrate the critical role that this organization
continues to play in protecting, strengthening and improving the programs and operations
of the Department of Defense. The men and women of the Office of the Inspector General
understand the importance of their role and are committed to helping the Department
successfully meet the many challenges that it will face in the years ahead.




                                      Eleanor Hill
                                   Inspector General




                                           ii
                                                     Semiannual Report to the Congress



                           TABLE OF CONTENTS

                                                                                 Page
CHAPTER ONE - REDUCING HIGH RISK VULNERABILITIES
  Introduction                                                                    1
  Information Management and Technology                                           1
  Financial Management                                                            2
  Acquisition                                                                     2
  Infrastructure                                                                  3
  Special Emphasis Areas                                                          4

  Special Emphasis Area - Readiness                                               5
     Host Nation Logistics Support                                                5
     Training                                                                     5
     Operating Tempo                                                              6
     Command, Control and Communications Readiness                                6
     Supply Support and Total Asset Visibility                                    6
     War Reserve Materiel                                                         7
     Chemical and Biological Warfare Defense                                      7
     Materiel Quality and Product Substitution                                    7
     Antiterrorism Readiness                                                      9
     Intelligence Support to the War-fighters                                    10
     Reporting                                                                   10
     Conclusion                                                                  10

  Special Emphasis Area - Property Disposal                                      11
     Disposal of Munitions List Items and Munitions Scrap                        11
     Property Disposal Decisions                                                 12
     Combatting Fraud                                                            13
     Conclusion                                                                  14

  Special Emphasis Area - Senior Official Investigations                         15
     Introduction                                                                15
     Background and Scope                                                        15
     Historical Perspective                                                      16
     Role of Program Integrity                                                   16
     Significant Investigations by Program Integrity and Their Impact            17
     Oversight Role                                                              19
     Conclusion                                                                  20


                                       iii
Semiannual Report to the Congress




CHAPTER TWO - SIGNIFICANT ACTIVITIES
      Introduction                                                                 23
      Criminal Investigations                                                      23
      Hotline                                                                      30
      Administrative Investigations                                                32
      Auditing                                                                     36
      Audit Policy and Oversight                                                   37
      Criminal Investigative Policy and Oversight                                  38
      Intelligence Review                                                          39
      Classified Annex                                                             40


APPENDICES
      A    Reports Issued by Central DoD Internal Audit Organizations             A-1
      B    Inspector General, DoD, Audit Reports Issued
           Containing Quantifiable Potential Monetary Benefits                    B-1
      C    Followup Activities                                                    C-1


EXHIBITS
    1  DoD Total - Senior Official Cases - FY 91-FY 97                             19
    2  Procurement Fraud and Major Health Care Fraud Investigative Case Results    24
    3  Suspensions and Debarments Resulting From Investigations                    27
    4  Other Fraud Related Criminal Investigative Results                          28
    5  DoD Hotline - Opened and Closed Cases and Total Contacts for FY 97          30
    6  Whistleblower Reprisal Inquiries by Category of Employee -
       Open as of September 30, 1997                                               33
    7  Military Whistleblower Reprisal Inquiries by Office Conducting Review -
       Open as of September 30, 1997                                               33
    8  Program Integrity - Senior Official Inquiries Open
       as of September 30, 1997                                                    35
    9  Program Integrity - Nature of Substantiated Allegations
       Against Senior Officials During 2nd Half FY 1997                            35
    10 Contract Audit Reports Issued                                               38




                                              iv
                                                                Semiannual Report to the Congress



CHAPTER ONE - REDUCING HIGH RISK VULNERABILITIES

INTRODUCTION                The audit, inspection, evaluation and investigative community
                            assists the Department in minimizing vulnerabilities to fraud and
                            mismanagement across a wide spectrum of high risk areas. The
                            community acts as an agent of positive change in identifying better
                            ways to accomplish the Department of Defense (DoD) mission by
                            controlling risk and fighting fraud. By closely linking our activities
                            with DoD strategic goals and management improvement plans, as
                            well as extensively participating in DoD team problem solving
                            efforts, we try to provide the most relevant, practical and timely
                            advice to policy makers, managers and commanders. The following
                            discussion of high risk areas clearly illustrates this focus.

INFORMATION               The rapid advance of information technology underlies the ongoing
MANAGEMENT                revolution in the military arts, where concepts like information
AND TECHNOLOGY            warfare and the preeminence of battlefield awareness have taken
                          hold. This technological progress also continues to play a signifi-
                          cant role in the evolution of DoD business practices. Virtually all
                          DoD command, control and support operations, as well as the
                          functioning of weapon systems, depend on computers. For this
                          reason, the challenges in this area are numerous and formidable.
                          The development of new systems throughout the Department to
                          enable better integrated, faster and less costly processes to be put
                          into place, must be simultaneously accelerated and better controlled
                          than past automated system acquisitions. Measures taken to date to
                                     implement the Clinger/Cohen Act and to merge the
                                     processes for acquiring weapon systems and information
 “...the legacy of disjointed        systems represent “good starts.” However, the legacy of
 information management              disjointed information management will remain difficult
 will remain difficult to            to overcome as long as most of these systems continue to
 overcome....”                       be controlled solely by functional managers.

                            The operational challenges posed by the vulnerability of DoD
                            automated systems to unauthorized access and the Year 2000
                            computing problem raise serious concerns. System security
                            problems have been well documented in DoD reviews, congres-
                            sional hearings and reports by General Accounting Office (GAO)
                            and DoD auditors. Our recent work indicated that, while many DoD
                            organizations are taking aggressive action, management of security
                            improvement efforts was somewhat fragmented, multi-level
                            security technology was not consistently incorporated into new
                            systems and controls over access to both operating systems and
                            applications at many computing sites needed improvement.


                                               1
Semiannual Report to the Congress



                              The DoD also needs to correct potential Year 2000 computing
                              problems in over 3,000 of its mission-critical systems and a huge
                              number of other applications. The DoD internal auditors are closely
                              involved in helping management overcome this challenge. In this
                              regard, we anticipate that a fairly constant flow of reports will be
                              issued starting in early 1998. Difficulties include: identifying all
                              system interfaces and developing coordinated corrective actions;
                              ensuring reliable testing; enforcing new rules against buying hard-
                              ware or software that does not comply with Year 2000 require-
                              ments; dealing with potential interoperability problems with allies;
                              achieving appropriate prioritization of effort; and providing
                              accurate status reports to senior DoD managers, the Office of
                              Management and Budget (OMB) and the Congress.

                              The DoD audit community issued 20 reports on information tech-
                              nology during the reporting period, covering a wide range of
                              systems development and security matters.

FINANCIAL                The DoD is pressing ahead to implement its Five-Year Financial
MANAGEMENT               Management Improvement Plan. Further sustained effort is needed,
                         however, to develop far more capable and better integrated finance
                         and accounting systems. These systems are needed to ensure that
                         the Department has the capability to use modem technology to
                         redesign many antiquated and inefficient processes, including
                         vendor pay, and to compile meaningful, reliable and timely
                              financial reports. The DoD remains unable to produce
                              auditable annual financial statements and useful accounting
                              reports, especially cost data for internal management
 "The DoD remains
                              purposes. The Department is also in continued noncompliance
 unable to produce            with basic fiscal law when charging contractor progress
 auditable annual             payments to specific accounts without relating the work
 financial statements...”     performed to the correct appropriation.

                             The DoD audit community responded to the mandatory audit
                             requirements in this area and the continued high risk by issuing 92
                             reports on finance and accounting during this reporting period.
                             Each report discussed internal management control issues. Cumula-
                             tively, the reports illustrate both the progress the Department has
                             made and the significant challenges with which it remains
                             confronted.

ACQUISITION                  Despite budget reductions, the DoD acquisition program continues
                             to be far larger than any other capital investment program in the
                             world. There are 77 major programs and about 1,200 smaller
                             programs in place, with total acquisition costs of nearly $1 trillion.
                             The DoD executed 7.5 million contractual actions during fiscal year

                                                 2
                                                                Semiannual Report to the Congress



                            1996. The complexity and scope of this effort, the potentially
                            catastrophic consequences of any failure to provide reliable and
                                          technologically superior weapon systems to our
                                          war-fighters, and the historically questionable
 “...the DOD acquisition                   performance of the acquisition system in terms of
 program [is the largest]...in the         schedule  slippage, cost growth and excessive unit
 world...with total acquisition            costs, combine to make acquisition a high risk area.
 costs of nearly $ 1 trillion....”        As  discussed in our last semiannual report, we are
                                          involved in and strongly support the Department’s
                                          ongoing acquisition reform initiatives.

                            During this reporting period, we issued 39 internal audit reports on
                            acquisition matters, ranging from requirements issues to contrac-
                            ting disputes. Findings indicated that contracting officers were
                            complying better with new rules favoring price analysis over
                            demands for certified cost or pricing data; requirements for certain
                            missiles, helicopters and laser systems were not sufficiently
                            supported; some improvement in compliance with requirements to
                            restrict the use of undefinitized contractual actions has occurred,
                            but widespread noncompliance remains a problem; the foreign
                            material acquisition program for foreign threat weaponry needs to
                            be strengthened; and the Advanced Concept Technology
                            Demonstration Program needs better selection criteria to achieve
                            full effectiveness as a major reform initiative.

INFRASTRUCTURE              The DoD spends nearly two thirds of its budget on infrastructure
                            operations and support activities. This includes the cost of main-
                            taining installations and facilities, providing health care to military
                            personnel and their families, repairing equipment and managing
                            supply inventories. The DoD continues to face the major challenge
                            of effectively reducing and transforming this support structure that
                            grew up during the Cold War. During the period, we issued 107
                            audit and evaluation reports, covering all of the major program
                            areas in this very broad category.

                            In the facilities area, we continued the construction project audits
                            mandated by the Base Realignment and Closure Act and also
                            reported that more aggressive energy use reduction goals for new
                            facilities were needed. In the health care area, audits identified
                            potential savings in the aeromedical evacuation program; called for
                            better cost accounting to enable more efficient management of the
                            Graduate Medical Education Program; and disclosed that alcohol
                            misuse by DoD personnel cost an estimated $1 billion in fiscal year
                            1995, principally in health care expenses. In material management,
                            auditors reported on opportunities to expand concurrent aircraft
                            modification and maintenance, improve the requirements forecasts

                                               3
Semiannual Report to the Congress



                              for spares and consumable war reserves, and reutilize more
                              materiel.

SPECIAL EMPHASIS             In this report, we provide a discussion of three focus areas where
AREAS                        there continuously are numerous significant audits and investi-
                             gations. The first is Readiness, a topic that actually cuts across most
                             of the high risk areas already mentioned. The second is Property
                             Disposal, which is part of the materiel management cycle and the
                             infrastructure high risk area. Lastly, we discuss our Program
                             Integrity mission, which entails the noncriminal investigation of
                             allegations against senior DoD officials.




                                                4
                                                                             Special Emphasis Area
Semiannual Report to the Congress                                                       Readiness



READINESS

                            Readiness ranks among the highest DoD priorities and goes to the
                           very core of the Department’s mission to defend the Nation.
                           Maintaining adequate readiness involves numerous challenges to
                            managers and commanders at every organizational and unit level.
                            Those challenges pertain not only to the factors most directly
                            associated with near-term readiness, e.g., training, manpower,
                           maintenance and supply, but also to longer term factors like
                            logistics supportability planning during the acquisition of weapon
                                       systems and agreements for host nation logistics support
                                       to U.S. forces overseas during contingencies. The
   “...the DOD internal and            Military Service Inspectors General have traditionally
  contract audit community             played a highly visible role in inspecting unit readiness
  identified $8.6 billion in           and troop morale. The supporting role of DoD auditors,
                                       evaluators and investigators in this area is less well
  potential monetary
                                       known, but is also significant.
  benefits...”
                                        In a broad sense, all audits and evaluations that help
                              improve DoD resource management anywhere in the Department
                              contribute to readiness by decreasing the budget pressures on those
                              accounts that most directly support readiness. During this 6-month
                              period, the DoD internal and contract audit community identified
                              $8.6 billion in potential monetary benefits and recommended
                              numerous ways to improve effectiveness and efficiency. In a more
                              direct sense, numerous audits and evaluations identified potential
                              readiness problems across a wide spectrum of functional areas.

                              The following paragraphs summarize the primary readiness
                              challenges faced by the Department and the assistance we are
                              providing to help address them.

HOST NATION                  The primary challenges for host nation logistics support planners
LOGISTICS                    are: fully identifying current U.S. forces contingency requirements,
SUPPORT                      concluding responsive agreements with the pertinent host nations,
                             and validating the assumptions for the host nation support availa-
                             bility. The main focus of our audit and evaluation coverage has been
                             on the host nation logistical support programs in Southwest Asia,
                             Europe and Korea. The results, whose details are generally classi-
                             fied, indicate that many support agreements are outdated, in terms
                             of current plans, and the requisite logistics support for carrying out
                             contingency plans may be lacking.

TRAINING                      The relevance and effectiveness of training are always of paramount
                              concern, especially when there is strong budget cutting pressure.

                                                5
Special Emphasis Area
Readiness                                                  Semiannual Report to the Congress


                        The DoD needs to reduce training infrastructure without degrading
                        program effectiveness. Auditors reported that DoD-wide manage-
                        ment of computer training and simulations was fragmented.
                        Oversight was inadequate in view of both the scale of currently
                        planned investments and the readiness consequences of unavailable
                        or unrealistic computerized training. Management took responsive
                        action, but a consensus is still lacking on the value of simulation
                        versus live training, especially for large operational scenarios.

OPERATING TEMPO         The large number of special U.S. military commitments around the
                        world at the present time is stressing the force. The Army Inspector
                        General conducted two significant assessments during the reporting
                        period, concluding that the current operational pace is having a
                        negative impact on troop morale, discipline and unit readiness. The
                        impact of deployments is felt by both the deploying units and others
                        whose assets are reallocated to support the deployment. Units
                        supporting Operations Joint Endeavor (Bosnia) and Intrinsic
                        Action (Kuwait) have been severely impacted; infantry, military
                        intelligence, military police, aviation, transportation, ordnance, air
                        defense artillery and field artillery units have had their personnel
                        assets “piecemealed” to support the deploying units. While there is
                        little concrete data, anecdotal input suggests that an increase in
                        family stress is occurring. In this regard, the number of Inspector
                        General Action Requests has increased, chaplains report an increase
                        in counseling sessions and financial assistance to soldiers from
                        support agencies such as the Army Community Service has
                        increased dramatically. Retention of junior officers is a major
                        concern. Other Services are facing similar personnel problems,
                        particularly in the loss of pilots.

COMMAND, CONTROL        With the successful fielding of the Global Command and Control
AND                     System, the remaining readiness issues in this area include classi-
COMMUNlCATlONS          fied problems with the DoD communications capabilities to support
READINESS               two major regional conflicts nearly simultaneously, information
                        systems security and the Year 2000 computing problem.
                        Unfortunately, the latter two are not widely perceived as readiness
                        issues. Compromise or failure of automated systems, however,
                        could have a catastrophic impact on our ability to deploy, support
                        and operate U.S. forces.

SUPPLY SUPPORT          After the Cold War, the DoD found itself with excess stocks of
AND TOTAL ASSET         equipment and outdated logistics concepts that relied on huge
VISIBILITY              materiel stockpiles rather than on the more flexible practices that
                        are now possible because of advancing information technology and
                        more capable, less expensive transportation support. The DoD
                        implemented several initiatives to reengineer its logistics systems,

                                          6
                                                                             Special Emphasis Area
Semiannual Report to the Congress                                                       Readiness


                              processes, capabilities and inventories, including adopting the com-
                              mercial business practices of total asset visibility, just-in-time
                              express delivery in support of day-to-day peacetime operations and
                              direct vendor delivery.

                              Ensuring that supply support to the war-fighters is fully adequate
                              during this transition period and the business practice changes are
                              implemented efficiently is a major focus of audits and evaluations.
                              Several recent audits disclosed weaknesses in the high risk area of
                              visibility, accountability and control of inventories of both con-
                              sumable items and repairable assets throughout the DoD.

WAR RESERVE                   Despite the expansion of just-in-time support concepts, there will
MATERIEL                      always be a need to stockpile war reserves. The primary challenge
                              is to identify the types, quantities and necessary locations of
                              materiel needed to conduct combat operations during the early
                              stages of a crisis in today’s more volatile and unpredictable world
                              situations. Over the past 2 years, the main focus of our audit and
                              evaluation coverage has been on reducing stockage in the European
                              Theater and repositioning materiel to support regional contin-
                              gencies in the Pacific and Middle East. Several significant instances
                              of malpositioned stocks or critical shortages of ammunition,
                              medical supplies and fuel have been disclosed, as well as some
                              unnecessary stockpiling.

CHEMICAL AND                  Readiness challenges in this area include ensuring that equipment,
BIOLOGICAL                    training and doctrine are fully adequate to meet the threat. Over the
WARFARE                       last year, a main focus of our audit and evaluation coverage has
DEFENSE                       been on management of the chemical and biological contamination
                              survivability program, joint operations doctrine, planning and
                              training; equipment and system survivability enhancements; and
                              testing of protective equipment. Improvements are needed in all of
                              those areas.

MATERIEL                      The operability of equipment is an essential component of readi-
QUALITY AND                   ness. The DoD maintenance community is justifiably under heavy
PRODUCT                       pressure to eliminate excess depot capacity and cut costs. From a
SUBSTITUTION                  readiness standpoint, the challenge is to improve service to the
                              war-fighters and ensure an adequate surge capability.

                              Whether or not a sufficient maintenance capability is in place,
                              equipment can be unsafe or unreliable because of design flaws, poor
                              quality control during manufacturing, poor handling or inferior
                              quality because of intentional product substitution. Audits regularly
                              focus on DoD management controls to assure quality, but there are


                                                7
Special Emphasis Area
Readiness                                                     Semiannual Report to the Congress


                          also some concerns about challenges posed by the influx of
                          commercial items into the supply system.

                          The chief threat in this area remains the deliberate substitution of
                          inferior materiel by manufacturers or vendors. In light of the safety
                          and readiness implications, combatting product substitution is one
                          of the highest DoD criminal investigative priorities. The three
                          military criminal investigative organizations and the Defense
                          Criminal Investigative Service (DCIS) each aggressively pursue
                          product substitution allegations. For example, nearly 20 percent of
                          DCIS cases are in this area. In fiscal year 1997, such cases resulted
                          in more than 40 indictments, 32 convictions and over $37 million
                          in fines, forfeitures and recoveries. The following case examples
                          represent some of the product substitution schemes investigated
                          either singly or jointly by the DoD criminal investigative com-
                          munity.

   Product Substitution   Hughes Aircraft Company allegedly used substandard fasteners on
   Case Examples          39 DoD contracts, did not adequately test parts used in Mark 48
                          Advanced Capability torpedoes and thwarted Government inspec-
                          tion of torpedo power supply units. As a result of this investigation,
                          Hughes agreed to a civil settlement of $500,000.

                          Tech-Air Services, Incorporated, failed to service emergency
                          equipment, such as fire extinguishers, oxygen containers, life raft
                          inflation cartridges, pressurized emergency landing gear extension
                          systems and other items belonging to commercial airlines, the DoD
                          and the contractor that services fire extinguisher bottles on DoD
                          aircraft used by the President and Vice President. Tech-Air then
                          submitted false certifications and invoices to its customers.
                          Following his conviction, the company’s operations manager was
                          sentenced to over 3 years imprisonment.

                                    A senior quality inspector at Lucas Western,
 "The company was fined
                                    Incorporated, falsified inspection records, directed others
 $18.5 million in addition to       to falsify records and knowingly caused defective gear-
 a civil settlement of $88          boxes to be provided to the DoD. This affected about
 million."                          3,000 flight critical parts used in the Army Multiple
                                    Launch Rocket System, the Navy F/A-18 aircraft and the
                          Air Force F-117 Stealth aircraft. The inspector was sentenced to 3
                          months imprisonment and a $10,000 fine. The company previously
                          pled guilty and was fined $18.5 million in addition to a civil
                          settlement of $88 million.

                          An Olin Corporation employee recklessly reprogrammed software
                          used in the production of millions of 20mm rounds for quality

                                             8
                                                                             Special Emphasis Area
Semiannual Report to the Congress                                                       Readiness


                              control because company officials pressured him to reduce high
                              scrap rates. The company cooperated in disclosing the employee’s
                              actions and agreed to an $8 million repayment to DoD.

                             Ordnance Parts and Engineering Company, Incorporated, made and
                             used false certificates of conformance to indicate that parts,
                             including various fasteners, supplied on DoD contracts met contract
                             specifications while knowing the certificates contained false
                             information. The parts were used on various aircraft, including the
                             Viking, Tomcat, Orion; helicopters including the Sea King and
                             Cobra; and aircraft and ship weapons systems such as missiles and
                             torpedoes. The company and multiple officials of the company were
                             fined a total of $120,000 for making false statements. Various terms
                             of imprisonment were imposed on the officials.

                                       Advanced Aerospace, Incorporated, used aluminum
  “...the owner of the                 instead of the magnesium called for in specifications in
  company was sentenced                manufacturing F-5 speed brakes. Some aircraft had to be
  to 5 years imprisonment              grounded while the less durable, defective brakes were
  and fined $500,000.”                 replaced. As a result of this investigation, the owner of
                                       the company was sentenced to 5 years imprisonment and
                                       fined $500,000.

                             To ensure that users of potentially defective equipment are not
                             subjected to undue risks, investigators provide formal safety alerts
                             to designated points of contact in the Military Departments,
                             elsewhere in DoD, the Department of Transportation (DOT), the
                             Federal Aviation Administration, the Nuclear Regulatory
                             Commission, the National Aeronautics and Space Administration
                             (NASA) and the Coast Guard. The alerts permit organizations to
                             pull stock out of service or inventory and evaluate its suitability for
                             future use.

ANTITERRORISM                The changing nature of the threat to U.S. interests and assets poses
READINESS                    numerous challenges, many of which are being addressed in a broad
                             set of initiatives under the label of antiterrorism readiness. The
                             antiterrorism program has diverse aspects, such as enhancement of
                             intelligence, physical security, information systems security and
                             capabilities to defend against weapons of mass destruction. Much
                             of our audit and evaluation work pertains to those topics and
                             supports those initiatives. In addition, in October 1996, we initiated
                             a survey of antiterrorism readiness encompassing over 560 DoD
                             commands and installations worldwide. Our survey data were
                             incorporated into the March 1997 Secretary of Defense Report to
                             Congress on Antiterrorism Readiness. In April 1997, we briefed the
                             final survey results to the DoD Antiterrorism Coordinating
                                                9
Special Emphasis Area
Readiness                                                   Semiannual Report to the Congress


                        Committee Senior Steering Group. We verified survey responses
                        and reviewed subsequent improvements in antiterrorism programs
                        within six Defense agencies.

INTELLIGENCE            Intelligence plays a crucial role in ensuring the warfighter is ready
SUPPORT TO THE          to meet the evolving challenges to our nation’s security. The conflict
WARFIGHTERS             spectrum has shifted from major combat forces confronting one
                        another to operations that involve such criminal behavior as inter-
                        national organized crime organizations selling nuclear materials
                        and cyber-terrorists attacking our nation’s information infra-
                        structure. With this shift in the threat spectrum, intelligence will be
                        the key to predicting, reinventing and defending against these
                        asymmetric threats. The challenge is to provide timely and reliable
                        intelligence while seeking, as with all other DoD elements, to cut
                        costs. Recent audits and evaluations covered intelligence issues,
                        such as the role that measurement and signature intelligence plays
                        in support to military operations, the proper consolidation of DoD
                        human intelligence capabilities and the management of conven-
                        tional signals intelligence collection sites. More information is
                        provided in Chapter Two and in a separate classified supplement to
                        this report.

REPORTING               Another major challenge in the readiness area is the difficulty of
                        measuring unit readiness objectively and reporting those assess-
                        ments in a useful form. In 1996, the IG, DoD, reported that the
                        Status of Resources and Training System (SORTS) was signifi-
                        cantly deficient in terms of being the principal DoD readiness
                        reporting vehicle. The Joint Staff agreed and is currently imple-
                        menting the recommended comprehensive action plan to resolve
                        the systemic problems with SORTS. The plan has three parts:
                        technical corrections to the SORTS system and database enhance-
                        ments (in process), rewrite of the SORTS policy and manual to
                        eliminate vagueness and ambiguity (policy draft is in coordination)
                        and the design and development of improved SORTS outputs for
                        decision makers (to be completed by December 1997). We are
                        tracking these actions and intend to do further audit work in the
                        readiness reporting area to assure that commanders and other
                        decision makers receive accurate, useful and timely information on
                        readiness status.

CONCLUSION              Maintaining adequate readiness is a complex and challenging goal,
                        especially when resources are very constrained, while operating
                        tempo is high. The DoD oversight community identifies ways to
                        stretch scarce resources further; ensures sufficient logistics, intelli-
                        gence and communications support is provided to the war-fighters;
                        and works to solve problems that degrade readiness.

                                           10
                                                                               Special Emphasis Area
Semiannual Report to the Congress                                                   Property Disposal



PROPERTY DISPOSAL

                              Although property disposal is merely one facet of DoD logistics
                              management, the challenges related to efficient reutilization, trans-
                              fer, donation, demilitarization and sale of excess or surplus military
                              items are formidable in their own right. Although the flow of
                              property through the Defense Reutilization and Marketing Service
                              and other disposal channels has somewhat slackened, well over $20
                              billion of materiel (original acquisition cost) is still being processed
                              annually.

                              To protect the taxpayers’ interest, the disposal programs need to
                              maintain a difficult balance between maximizing the sales of
                              surplus materiel to recoup as much of its residual value as possible,
                              yet avoiding the sale of items that are still needed for Defense or
                              other Government purposes. The disposal programs must also
                              ensure that the public safety is not endangered by improperly
                              demilitarizing potentially dangerous materiel before it is sold or
                              exchanged. Among the many factors at play are: the sheer volume
                              of materiel moving through the disposal process; the necessarily
                              widespread dispersion of disposal offices; the highly pilferable
                              and/or potentially dangerous nature of much of the materiel; the
                              multiplicity of military organizations, Federal, state and local
                              government agencies, nonprofit entities and contractors involved;
                              potentially conflicting management goals and objectives; the work-
                              force turbulence associated with site closures, downsizing and
                              potential outsourcing; shortfalls in the reliability of automated
                              management information systems; and the usual problems
                              encountered when introducing new business processes, as the
                              Department is trying to do in this area.

                              Over the past few years, issues related to property disposal have
                              been high audit and investigative priorities. In fiscal years 1995
                              through 1997, we issued 16 audit reports in this area, each
                              containing significant findings and recommendations. Criminal
                              investigations by the DCIS during this period resulted in 35 arrests,
                              nearly 100 indictments and seizures of almost $80 million in stolen
                              DoD property.

DISPOSAL OF                   In this area our principal concerns are inadequate demilitarization
MUNITIONS LIST                controls and questionable exchanges or transfers of helicopters and
ITEMS AND                     other equipment to obtain items for military museums.
MUNITIONS SCRAP
                              Munitions list items (MLI) are defined as military articles that
                              require special handling at the time of disposal to prevent
                                                 11
Special Emphasis Area
Property Disposal                                              Semiannual Report to the Congress


                            unauthorized use by domestic or foreign purchasers. Special
                            handling instructions are provided by assigning a demilitarization
                            code when an item is introduced into the DoD inventory. Auditors
                            reported chronic noncompliance with policies for coding MLI,
                            which is a responsibility of the inventory control points. A random
                            statistical sample showed that 52 percent of items sampled from
                            supply inventories had inaccurate demilitarization codes. In one
                            instance, about 10,000 tools had been coded as requiring demilitari-
                            zation, which would have cost $9.5 million. We found that 80
                            percent of the items did not require demilitarization. These
                            problems need to be addressed vigorously so that the DoD does not
                            incur unnecessary demilitarization costs or inadvertently sell sensi-
                            tive or dangerous items. The risk of either of those undesirable
                            consequences occurring is high when the coding is wrong. The DoD
                            shared our concerns and is working to find solutions. In addition,
                            the Congress is requiring the Department to report on its corrective
                            actions by January 31, 1998.

                           We found that similar coding problems existed at sites operated by
                            15 contractors who hold DoD property. Of 1,820 items that we
                           judgmentally sampled, we found 1,400 were not properly reviewed
                                   at all to ascertain whether they were MLI. It was accepted
                                   practice of the contractors to dispose of all such property
 “...a fatal accident              without due attention to potential demilitarization require-
 occurred when a                   ments. On the other hand, we found 155 items that had been
 purportedly inert artillery       identified as MLI, but were sold anyway without
                                   consideration of demilitarization or trade security policy
 shell exploded...”
                                   requirements.

                            In March 1997, a fatal accident occurred when a purportedly inert
                            artillery shell exploded in a commercial scrap yard in California. A
                            criminal investigation of that incident by the DCIS is still in
                            progress. As a separate effort and at the request of the Department,
                            we reviewed disposal practices for ammunition, explosives and
                            other dangerous articles at 16 military installations. Our review
                            indicated that a major effort is needed to improve a variety of base
                            level controls,

                            Cumulatively, the DoD fires or otherwise disposes of 200,000 tons
                            of ordnance annually, so extensive safety and environmental
                            ramifications are involved in proper disposal. The Department is
                            taking numerous corrective actions.

PROPERTY DISPOSAL The DoD materiel managers and program officials who decide what
DECISIONS         to dispose of and what can be reutilized have more impact on the
                  volume and economic impact of DoD disposal operations than does

                                              12
                                                                                Special Emphasis Area
Semiannual Report to the Congress                                                    Property Disposal


                             the Defense Reutilization and Marketing Service. We put
                             considerable audit emphasis on identifying problems and in
                             determining what should be disposed of or retained in inventory,
                             especially in settings other than the supply depots. Recent audits
                             indicated that the Military Departments unnecessarily stored
                             uncatalogued materiel purchased for research, development, test
                             and evaluation work. The 13 installations reviewed had well over
                             $1 billion (acquisition costs) of uncatalogued materiel on hand
                             dating from 2 years to more than 30 years after projects for which
                             the materiel was intended were completed. The materiel stood little
                             chance of being reutilized where it was and no chance of being
                             reutilized by other DoD activities, who had no way of knowing of
                             its existence. There are 73 other similar installations, and it is
                             reasonable to assume that most of them have had similar practices.
                             These resources need to be inventoried and screened for reutili-
                             zation or disposal

                             Government-owned property in the possession of contractors, with
                             an acquisition value of about $90 billion, has never been thoroughly
                             screened to determine reutilization potential. In addition, the
                             Department should reexamine its 44-year old practice of taking title
                             to large amounts of tooling, test equipment and general purpose
                             items acquired to carry out a wide variety of tasks under cost type
                             contracts. The reutilization potential of much of that property may
                             be minimal. The Deputy Secretary of Defense and the DoD acquisi-
                             tion community have been examining the current policies over the
                             past few months, and we anticipate recommending significant
                             changes to the current practices.

COMBATTING                   The intrinsic nature of the materiel processed through DoD disposal
FRAUD                        channels, coupled with the difficulty in maintaining strong controls
                             at every storage or disposal site, make this a high risk area in terms
                             of the criminal threat. The following examples of recent cases give
                             a good flavor of the kinds of schemes that DoD criminal investi-
                             gators frequently encounter.

                                    l   Several individuals unlawfully removed military vehicles
                                        and equipment from Fort McCoy, Wisconsin. The stolen
                                        items included an obsolete tank, a bulldozer, a 20-ton crane
                                        and a forklift.

                                    l   Equipment, such as bulldozers, road graders, forklifts, front
                                        end loaders, patrol boats and diesel engines, worth more than
                                        $80 million, was illegally acquired by a group under the guise
                                        of transferring excess property to Indian reservations.


                                                   13
Special Emphasis Area
Property Disposal                                          Semiannual Report to the Congress


                           l   Three Federal Aviation Administration employees in
                                Oriskany, New York, illegally obtained and converted $1
                                million of DoD trucks, generators, appliances and video
                                equipment for their own use.

                           l   Seawitch Salvage Company, Baltimore, Maryland, illegally
                               dumped asbestos removed from ships that were being
                               scrapped and provided false documentation to DoD disposal
                               officials to conceal the violations.

                           l   A police chief in Michigan diverted a tractor and two trailers
                               provided by the DoD as law enforcement assistance for his
                               personal use.

CONCLUSION              This high risk area merits continued audit and investigative priority
                        attention. Recognizing the challenges and risks, DoD managers
                        have been exceptionally cooperative with us and responsive to our
                        findings and recommendations in the property disposal area.




                                           14
                                                                                           Special Emphasis Area
Semiannual Report to the Congress                                                     Senior Official Investigations



SENIOR OFFICIAL INVESTIGATIONS

INTRODUCTION                       We continue to accomplish our role of ensuring that allegations of
                                   misconduct involving senior DoD officials are properly addressed.
                                   In that capacity, we conduct a limited number of noncriminal
                                   investigations into allegations against senior officials and oversight
                                   the hundreds of similar inquiries completed annually by the
                                                                                                        1
                                   Inspectors General of the Military Services and Defense agencies.
                                   This summary describes the way that our responsibilities in this
                                   special interest area have evolved over the past few years, and
                                   illustrates the impact significant investigations that we completed
                                   during, and before, the period of this Semiannual Report have had.

                                   Senior DoD officials are understandably held to the highest
                                   standards of conduct. Alleged violations of regulations committed
                                   by senior officials must be investigated aggressively, competently
                                   and with sensitivity.

BACKGROUND                         The scope of this work encompasses the 1,275 general and flag
AND SCOPE                          officers currently on active duty, in the National Guard and the
                                   Reserves. It also includes over 1,200 civilians who are career
                                   members of the SES or who are agency appointed to high-level,
                                   non-career positions within the DoD. As of September 30, 1997,
                                   the DoD had 343 active investigations into allegations against some
                                   of those senior officials, of which 36 were being conducted by this
                                   office, with the remainder conducted by other DoD and Military
                                   Service IGs under our oversight. Historically, approximately 20
                                   percent of those investigations have substantiated allegations of
                                   wrongdoing. Allegations typically fall into one of the following
                                   categories:

                                        l   Misuse of Government resources, such as military aircraft,
                                            official vehicles or other Government property.

                                        l   Misuse of position, particularly the use of official position
                                            for personal benefit or the benefit of others.

                                        l   Misconduct of a sexual nature, or the related allegation of
                                            favoritism shown a subordinate because of an inappropriate
                                            relationship with that subordinate.


1    The term “senior officials” refers to military officers selected for, or serving in or above, the rank of
     Brigadier General or Rear Admiral (lower half) and civilians who are career members of the Senior
     Executive Service (SES) or appointed to equivalent or higher level positions.


                                                         15
Special Emphasis Area
Senior Official Investigations                                       Semiannual Report to the Congress


                                    l    Mistreatment of subordinates, to include abusive behavior or
                                         an unwarranted adverse personnel action.

                                    l    Failure to take effective corrective action when circum-
                                         stances warranted.

                                    l    Conducting travel at Government expense for personal rather
                                         than official reasons.

HISTORICAL                       The current process for handling allegations of wrongdoing by
PERSPECTIVE                      senior DoD officials is, in part, the result of action taken to respond
                                 to two fundamental concerns that were expressed by Chairmen of
                                 Congressional Committees in the late 1980s:

                                    l    Possible withholding of adverse information concerning
                                         senior officials who were nominated for an action (e.g.,
                                         promotion, retirement) that required Senate approval-a
                                         concern expressed in August 1988 by the Chairman and
                                         Ranking Minority Member of the Senate Armed Services
                                         Committee.

                                    l    Lack of timeliness and thoroughness in senior official
                                         investigations that were conducted by Service investigative
                                         units-expressed in March 1989 by the Chairman, Senate
                                         Committee on Government Affairs.

                                 The Program Integrity Directorate was subsequently established in
                                 1990 and assigned the mission of conducting and overseeing
                                 investigations into allegations of senior official misconduct. The
                                 Directorate’s role in these investigations was further expanded with
                                 the publication of a DoD policy directive in 1991, which provides
                                 that:

                                     l   The OIG, DoD, be advised within 5 days of any allegation of
                                         serious misconduct made against a senior official in the DoD.
                                         At this point, the OIG, DoD, may choose to assume investi-
                                         gative responsibility for the matter.

                                     l   Oversight is exercised over all senior official investigations
                                         that we refer to another DoD component.

                                     l   Reports of investigation completed by other components are
                                         then reviewed by the Program Integrity Directorate.

ROLE OF PROGRAM                  As a general observation, we believe that the IGs of the Military
INTEGRITY                        Services and Defense agencies are well qualified to conduct

                                                     16
                                                                                           Special Emphasis Area
Semiannual Report to the Congress                                                     Senior Official Investigations


                                    inquiries into allegations against senior officials within their
                                                    2
                                    organizations. However, we now conduct nearly all investigations
                                    into allegations against heads of Defense agencies, the most senior
                                    officials in the Military Services, the unified commanders, other
                                    IGs and political appointees. As a result, the number of senior
                                    official investigations that the Program Integrity Directorate
                                    completed increased from just 5 cases in fiscal year 1991 to 56
                                    investigations in fiscal year 1997.

                             The Military Services have established specialized investigative
                             units, under their Service IGs, to investigate allegations against
                                        senior officials. Investigators assigned to these units
                                        have extensive experience in the DoD and receive
     "...our investigations have        specialized training in conducting noncriminal investi-
    resulted in significant             gative work. As a result, most of our oversight reviews
    changes to DoD policies..."         find that investigations completed by the Military
                                        Service IGs meet established quality standards.

                                    In March 1995, a DoD directive was published that emphasizes the
                                    need to “fully inform the President and the Senate of adverse
                                    information” concerning officers being nominated for senior
                                    positions. The directive requires that the OIG, together with the
                                    Military Services, identify any adverse, or alleged adverse,
                                    information during the nomination process. Consistent with that
                                    directive, nominations for officers who are the subject of ongoing
                                    investigations are placed on hold pending the outcome of the
                                    investigation. We conduct over 2,500 “name checks” annually as
                                    part of this process, and coordinate on a daily basis with the Military
                                    Services to ensure information provided is accurate and complete.

SIGNIFICANT                         The results of investigations conducted by the Program Integrity
INVESTIGATIONS                      Directorate have had a positive impact on the level of ethics
BY PROGRAM                          awareness and cost consciousness throughout the Department. For
INTEGRITY AND                       example, our investigations have resulted in significant changes to
THEIR IMPACT                        DoD policies concerning the use of military aircraft by senior
                                    officials. Justification for the use of military aircraft for senior
                                    official travel has been rigidly defined, and approval channels
                                    clarified. Further, the historic practice of scheduling “training
                                    missions” for military aircraft to accommodate senior official travel
                                    has been specifically prohibited by a March 1997 revision to the
                                    DoD regulation concerning Government air travel. We have


2      A breakdown by Service of open senior official inquiries is provided in the section of this report entitled,
       “Administrative Investigations.”


                                                          17
Special Emphasis Area
Senior Official Investigations                                           Semiannual Report to the Congress


                                 observed an overall decrease in the number of allegations of aircraft
                                                                        3
                                 misuse by senior officials as a result.

                                 In one case we found that Air Force decisions to dispatch an empty
                                 military aircraft for overseas and local travel of a senior official
                                                 4
                                 were wasteful. In another, a senior Army official used military
                                 aircraft repeatedly for unofficial travel. In a third, we found that a
                                 unified commander diverted a military aircraft on a scheduled
                                 mission so that he could attend the funeral of a relative. Those cases
                                 not only demonstrated the need for greater attention to military
                                 aircraft use, but also caused the DoD to revise applicable regula-
                                 tions

                                 In other investigations, we substantiated allegations that senior
                                 officials used Government resources for personal benefit and,
                                 where appropriate, we obtained reimbursement to the Treasury for
                                 unnecessary costs incurred. In a recent case involving a Defense
                                 agency, we determined that Government funds were improperly
                                 used to support a variety of activities conducted to commemorate
                                 the retirement of the agency director. Responsible officials
                                 personally reimbursed the Government over $2,500. Further, the
                                 agency is revising its internal procedures to prevent future viola-
                                 tions. In other cases, the Department obtained reimbursement from
                                 senior officials who caused the Government to incur additional cost
                                 by using official vehicles and telephones for personal benefit.

                                 Although there has been an increase in the number of allegations
                                 against senior officials, the case load appears to have stabilized in
                                 1997 (see Exhibit 1, page 19).

                                 In conducting our work, we recognize the potential impact, both
                                 personal and professional, that the initiation of an investigation may
                                 have on a senior official, irrespective of the ultimate outcome of the
                                 investigation. Therefore, we protect all testimony obtained, notify
                                 only key officials of the initiation of the investigation, and subject
                                 investigative reports to exhaustive checks for factual accuracy and
                                 legal sufficiency. In that regard, we ensure that the conduct at issue
                                 is evaluated in terms of applicable standards (i.e., laws, regulations
                                 or other established guidance), so that arbitrary, subjective assess-
                                 ments are avoided.


3    The number of investigations conducted by us or other IGs into allegations of aircraft misuse declined
     from 58 during the 2-year period 1994-1995, to 28 during 1996-1997.
4    As noted in the introduction above, significant investigations referenced in this summary were completed
     during, or prior to, the period covered by this Semiannual Report.


                                                      18
                                                                                                                                 Special Emphasis Area
Semiannual Report to the Congress                                                                                           Senior Official Investigations




                                                            DoD Total
                                                Senior Official Cases FY 91 - FY 97


               450
                                                                                                                    394                     403

               400                                           374                                  377                                 380
                                                                                      350                                 352
                                                                                343
               350                                                 315

               300                       263

               250     200                     214
                                                                                                        220


               200
                             139
               150
               100                                                       6 4                6 9                                 6 3               6 3
                                   4 1               4 7                                                      5 5

                50
                 0
                        1991              1992                1993                  1994           1995              1996              1997
                                                           Open          Closed              Substantiated



                                                                         Exhibit 1

                                         Further, to protect the rights of subjects, we advise them of the
                                         nature of the allegations at the time we initiate the investigation and
                                         provide them an opportunity to comment on any potentially adverse
                                         conclusions before we issue our report. If we recommend that
                                         management officials (e.g., the Secretary of Defense or Secretaries
                                         of the Military Services) take corrective action with respect to the
                                         senior official, we provide redacted copies of evidence that supports
                                         our conclusions to management officials who may, at their discre-
                                                                                          5
                                         tion, provide those documents to the subject.

OVERSIGHT ROLE                           In addition to monitoring progress on the more than 300 senior
                                         official investigations conducted by DoD components at any one
                                         time, and reviewing the resultant reports of investigation for
                                         adequacy, the Program Integrity Directorate has initiated systemic
                                         reviews of investigative processes to identify opportunities for
                                         improvement. Significant efforts in this area include:



5    These and other improvements to the investigative process affecting senior officials were recommended
     by the Report of the Advisory Board on the Investigative Capability of the DoD, published in December
     1994.


                                                                               19
Special Emphasis Area
Senior Official Investigations                                           Semiannual Report to the Congress


                                      l   A review of noncriminal investigations conducted by the
                                          Army and Air Force IG systems. As a result of that review,
                                          the Air Force designated nearly 100 billets to serve as
                                          full-time IGs at the wing or installation level. This action was
                                          taken to eliminate the practice of “dual-hatting” vice or
                                          deputy commanders as IGs, which created an inherent
                                          conflict of interest between command and IG roles. Because
                                          we found deficiencies in Army investigations into allegations
                                          of reprisal for whistleblowing, the Army intensified head-
                                          quarters level management of those cases. In addition, both
                                          Services took steps to educate Service members of their right
                                          to contact an IG, after we reported widespread fear of reprisal
                                          for doing so, especially among lower ranking Service
                                          members.

                                      l   Inquiries into allegations that two Air Force aircraft safety
                                          investigations were flawed. In one case we found that an Air
                                          Force practice of briefing investigative results “up the chain
                                          of command” caused the perception of improper command
                                          influence. The responsible Air Force organization ceased the
                                          practice. In the second case, we concluded that an Air Force
                                          investigation into a midair collision failed to adequately
                                          inquire into the actions of one of the Air Force pilots. We
                                          recommended that the Secretary of the Air Force reopen the
                                          investigation, which she did.

                                      l   A review of investigations of senior active and Reserve
                                          component officers conducted by the Service IGs-with
                                          particular focus on the possibility that existing procedures
                                          discriminate against Reserve component officers. This
                                          review was recently initiated at the direction of the Senate
                                                                         6
                                          Armed Services Committee. To date, we have interviewed
                                          Adjutants General and their staffs in five states, extracted
                                          statistics on all senior official cases conducted in the DoD
                                          over the past 2 years, and interviewed Service IGs and
                                          investigators.

CONCLUSION                        We will continue to ensure that investigations of allegations against
                                  senior officials receive priority attention within the OIG. Our
                                  investigative products will remain thorough, impartial and timely.
                                  We consider prompt, thorough and unbiased investigations into



6     See Senate Report No. 105-29, National Defense Authorization Act for Fiscal Year 1998, at page 279,
      “Inspector general investigations of general and flag officers.”


                                                      20
                                                                           Special Emphasis Area
Semiannual Report to the Congress                                     Senior Official Investigations


                             senior official matters to be a critical responsibility-one that is
                             vital to sustaining the trust of our Service members and the public.




                                              21
Special Emphasis Area
Senior Official Investigations                                    Semiannual Report to the Congress




                                 This page left blank intentionally




                                                 22
                                                              Semiannual Report to the Congress



CHAPTER TWO - SIGNIFICANT ACTIVITIES

INTRODUCTION              This chapter summarizes the significant activities of the Office of
                          the Inspector General components and their work with other
                          members of the DoD oversight community.

CRlMlNAL                   The four Defense Criminal Investigative Organizations (DCIOs)
INVESTIGATIONS             continue to combat crime affecting the DoD and the Military
                           Departments. The DCIS, the criminal investigative arm of the OIG,
                           focuses the bulk of its 357 civilian criminal investigators on the
                           investigation of procurement fraud by Defense contractors and
                           health care fraud by health care providers. The three Military
                           Department criminal investigative organizations, the Army
                           Criminal Investigation Command (CIDC), the Naval Criminal
                           Investigative Service (NCIS) and the Air Force Office of Special
                           Investigations (AFOSI), also investigate procurement fraud, but
                           focus the majority of their resources on other crimes against persons
                           and property affecting their respective Military Departments. The
                           AFOSI and NCIS also conduct counterintelligence investigations
                           and operations. This section focuses on the procurement, health
                           care and other major fraud investigations accomplished by the
                           DCIOs.

  Procurement and          Exhibit 2 (page 24) displays the investigative results achieved by
  Health Care Fraud        the four investigative organizations during the period with regard
  Investigative Results    to procurement fraud and health care provider fraud.

  Examples of            United Technologies Corporation, Pratt & Whitney (P&W),
  Procurement            Government Engine and Space Propulsion Division, West Palm
  Fraud                  Beach, Florida, entered into a settlement agreement in which P&W
                         agreed to pay the Government $14.8 million, following the Defense
                         Contract Audit Agency (DCAA)-assisted DCIS investigation. The
                         agreement resolved charges that P&W violated the False Claims
                         Act by preparing false purchase orders and submitting false
                                   invoices under the Foreign Military Sales Program
                                   (FMSP) administered by the Defense Security
                                   Assistance Agency. The program involved the FMSP
 "...Pratt & Whitney agreed
                                   funded Lavi fighter aircraft under development for the
 to pay the Government             Israeli Air Force.
 $14.8 million..."
                                     The Boeing Company, Space and Defense Group,
                           Seattle, Washington, agreed to an administrative settlement of over
                           $6 million in connection with interdivisional work orders for the
                           Boeing 777 Commercial Aircraft Program. Costs related to this
                           commercial program were included in Governmental General and

                                             23
Semiannual Report to the Congress




                     PROCUREMENT FRAUD AND MAJOR HEALTH CARE FRAUD
                               INVESTIGATIVE CASE RESULTS
                                                                                        Joint
                            DCIS           CIDC             NCIS          OSI           DCIO           Total

Litigation Results -
DoJ Only
Indictments                        58              6               12             3             29             108
Convictions                        39              5               5              2             23              74
Civil Settlements/                 24              1               1             6              24              56
Judgements
Monetary Outcomes
DoJ Only                  $32,246,000       $430,000        $218,000    $10,017,000    $9,416,000    $52,327,000
DoD Administrative          1,336,000      4,049,000         593,000       497,000         69,534     76,009,000
Recoveries 1
Investigative                  60,000         52,000            1,000        71,000       190,000        375,000
Recoveries 2
Total                    $33,642,000      $4,532,000         $812,000   $10,585,000    $79,140,000 $128,711,000

1

2
 Includes the results of military courts-martial.
 Includes Government properties seized or otherwise recovered during investigations. Those properties may include
items previously transferred to a Defense Reutilization and Marketing Office. Government property recovered by
investrgation iS valued at original acquisition price, which may exceed the current fair market value.


                                                   Exhibit 2

                                  Administrative accounts. Contractors are not permitted to include
                                  costs of commercial contracts either directly or indirectly in
                                  accounts for which the Government is charged. These unallowable
                                  costs were thus included in computations used to determine over-
                                  head rates used on Government contracts.

                                  An AFOSI/DCIS, DCAA-assisted, investigation of qui tam
                                  allegations found that Northrop Grumman Corporation’s Military
                                  Aircraft Systems Division (NGMASD) unintentionally overbilled
                                  the Government on a Low Rate Initial Production contract for the
                                  B-2 bomber. During this reporting period, NGMASD reached a
                                  compromise settlement and remitted $687,654 in interest on the
                                  overbilled amount. The interest payment, added to NGMASD’s
                                  previous credit to the Government, brings the total administrative
                                  recovery in this matter to $34.8 million.

                                  American Construction Services, Incorporated (ACSI) and its
                                  owner, Robert Leas, were convicted as a result of an investigation

                                                       24
                                                         Semiannual Report to the Congress



                                     involving ACSI’s actions in obtaining over $4
“...the singing career costs
                                     million in fuel storage tank contracts under the
and other personal expenses          small, minority, woman-owned preference. Leas
[incurred by the contractor’s        claimed that his wife was the sole owner of ACSI
wife] were...passed on to the        when she was actually an aspiring country western
Government...”                       singer in Tennessee. At Leas’ direction, the singing
                                     career costs and other personal expenses were
                      charged to ACSI’s overhead accounts and then passed on to the
                      Government as part of their contract costs. In addition, a false claim
                      for more than $1.8 million, including personal expenses for an
                      automobile and a trip to Hawaii and Tahiti, was submitted. Leas
                      was sentenced to 30 months incarceration and a criminal fine. The
                      investigation was conducted jointly by the Federal Bureau of
                      Investigation (FBI), DCIS and the OIG, Department of
                      Transportation (DOT).

                      Harold Fink and John Hart, Army intelligence specialists, and
                      Michael Joslin, an Army noncommissioned officer with the 902nd
                      Military Intelligence Group, Fort Meade, Maryland, were found to
                      have conspired in an attempt to improperly obtain DoD training and
                      service contracts by using their Government positions. Fink and
                      Joslin formed Technology Protection, Incorporated, and later
                      solicited Hart and Donald Hicks, a retired Army major, to assist in
                      the scheme. Hicks attempted to obtain DoD contracts through his
                      sister, an Air Force major. As a result of this DCIS/CIDC/FBI
                      investigation, Fink, Hart, Joslin and Hicks were each sentenced to
                      incarceration and criminal fines.

                      After pleading guilty to four counts of making false statements in
                      connection with DoD contracts, CTX International, Incorporated,
                      was sentenced to a $2 million fine and an $800 special assessment.
                      Contracts required CTX to supply Buy American Act (BAA)-
                      compliant computer monitors to the Army, Navy, Air Force and
                      Marine Corps. The investigation showed that monitors, supplied by
                      CTX through various prime contractors, were mislabelled as being
                      manufactured in a BAA-compliant country, when in fact they were
                      manufactured in noncompliant countries. The investigation was
                      conducted jointly by the DCIS and the U.S. Customs Service.

 Examples of Health   Anthony L. Hester, owner of Doctor’s Professional Ambulance
 Care Fraud           Service, was sentenced to 63 months incarceration, 36 months
                      probation, $1,697,465 in restitution and a $200 special assessment
                      for mail fraud. Hester caused over $2.6 million in false claims for
                      ambulance transportation and related medical services to be mailed
                      to various insurance carriers, including Civilian Health and Medical
                      Program of the Uniformed Services (CHAMPUS). The matter was

                                        25
Semiannual Report to the Congress



                                             investigated by DCIS/Department of Veterans
 “...EPBs upcoded... billed for the
                                             Affairs/U.S. Postal Inspection Service (USPIS)/
 same services twice and billed
                                             HHS.
 for services not provided...."
                                               EmCare, Incorporated, Dallas, Texas, one of the
                             nation’s largest physician staffing companies, agreed to pay the
                             Government and various states $7.75 million to settle allegations it
                             overcharged several Federal health care programs. The over-
                             charges stemmed from false claims submitted by EmCare’s billing
                             company, Emergency Physicians Billing Service (EPBS),
                             Oklahoma City, Oklahoma. An investigation conducted by
                             DCIS/FBI/Department of Health and Human Services (HHS) and
                             the Oklahoma Attorney General’s Office established that EPBS
                             upcoded (billed for services at a rate higher than provided), billed
                             for the same services twice and billed for services not provided.
                             Inflated billings were submitted to the CHAMPUS, Medicare,
                             Medicaid and private insurers. The agreement settled a qui tam suit
                                           against EmCare; the relator’s estate will receive about
                                           $1.5 million.
 "Bonham was sentenced to
                                         A jury found Dr. Henry Bonham and Beverly Bulger,
 87 months confinement..."
                                         Bonham’s office manager, guilty on more than 20
                                         counts each of mail fraud, conspiracy and false claims.
                             Bonham was sentenced to 87 months confinement, 3 years super-
                             vised release, $3,911,000 in restitution and a $1,200 special
                             assessment. Bulger was sentenced to 46 months confinement, 3
                             years supervised release and a $1,150 special assessment. A
                             DCIS/Internal Revenue Service (IRS)/HHS investigation
                             determined Bonham submitted claims to insurance programs,
                             including CHAMPUS, Medicare and Medicaid, for services not
                             rendered or rendered by unauthorized persons and received
                             payment from hospitals for patient referrals. Bulger received
                             payment from certain hospitals as a geriatric liaison for patients
                             Bonham referred from nursing homes to those hospitals.

                              A DCIS/USPIS investigation determined that Frank Lombardo
                              submitted false claims to the CHAMPUS. He was sentenced to 18
                              months incarceration, 36 months supervised release and $330,873
                              in restitution and assessments for using the U.S. mail to defraud
                              CHAMPUS, the Federal Employees Health Benefits Program,
                              private insurers and his patients.




                                               26
                                                                Semiannual Report to the Congress



   Suspensions and       The numbers of contractors and individuals suspended and
   Debarments            debarred as a result of DoD criminal investigations are shown in
   Resulting from        Exhibit 3.
   Investigations




         SUSPENSIONS AND DEBARMENTS RESULTING FROM INVESTIGATIONS
                                    Defense Criminal Investigative Organization (DCIO)
                                                                                Joint
                             DCIS         CIDC       NCIS           OSI        DCIO          Total
DoD CONTRACTOR ACTIONS
Suspensions

   Companies                        14           0          2             1              2           19
    Individuals                     14           0          7             3              8           32
           Total                    28           0          9             4             10           51

Debarments
    Companies                       26           4          28            9             18           85
   Individuals                      25           2          32            7             33           99
           Total                    51           6          60            16            51      184



                                         Exhibit 3




                                           27
Semiannual Report to the Congress



   Other Criminal                     In addition to the matters listed above, the DCIOs conducted
   Investigative                      various other significant investigations involving large scale thefts
   Results                            and non-procurement related fraud. The results of those investi-
                                      gations are presented in Exhibit 4. As in previous reports, the
                                      statistics shown in the exhibit do not include general crime investi-
                                      gations or counterintelligence activities.


                                OTHER CRIMINAL INVESTIGATIVE RESULTS
                                                                                    Totals for Period
                                                                                      State/Local/
                                                                  DoJ                   Foreign                   Total
        LITIGATION RESULTS
        Indictments
               DCIS                                                         36                       15                       51
               CIDC                                                         13                       1                        14
               NCIS                                                         33                       23                       56
               OSI                                                          21                        2                       23
               Joint DCIO                                                       5                    0                         5
                      Total                                                108                       41                      149
            Convictions
               DCIS                                                         32                        8                        40
               CIDC                                                         39                        3                        42
               NCIS                                                         42                       33                        75
               OSI                                                          17                        9                        26
               Joint DCIO                                                   15                        0                        15
                      Total                                                145                       53                      198


                                                                                              State/Local/
                                                    DoJ                   DoD                   Foreign             Total
        MONETARY OUTCOME ($000)                                            1             2

               DCIS                                    $6,573           $316         $2,991               $763        $10,643
               CIDC                                       579           1,550         2,295                  3             4,427
               NCIS                                       549           1,950         1,757                131             4,386
               OSI                                         64            579          1,905                  53            2,601
               Joint DCIO                               1,280              0         11,068                   0            12,349
                      Total                             $9,046        $4,394        $20,016               $950            $34,406
        1

        2
         Administrative settlements and recoveries, and results of military courts-martial.
         Investigative seizures and recoveries. Includes Government properties seized or otherwise recovered during
        investigations and may include items previously transferred to a Defense Reutilization and Marketing Office.
        Government property recovered by investigation is valued at the original acquisition price, which may exceed the
        current fair market value.

                                                             Exhibit 4


                                                                 28
                                                            Semiannual Report to the Congress



 Examples of             Following a guilty plea, Sarkis Parseghian was sentenced to 41
 Major Theft             months in prison, 3 years probation, $207 in restitution and a $100
                         special assessment. Investigation disclosed that Parseghian and
                                        other members of an organized crime group were
                                        involved in the purchase and sale of over $8 million
“...an organized crime group            worth of stolen fuel, including fuel stolen from a
                                        Defense Fuel Supply Center. Members of the inves-
[was] involved in the purchase
                                        tigative team were comprised of DCIS/FBI/IRS/
and sale of over $8 million
                                        DOT/Los Angeles and Long Beach, California,
worth of stolen fuel...”
                                        Police Departments/California Department of
                                        Justice (DoJ).

                          Mocheet Q. Smith was sentenced to 8 months incarceration and a
                          $50 special assessment fee for conspiracy to commit bank fraud.
                          Smith, a Defense Finance and Accounting Service (DFAS)
                          employee, stole U.S. Treasury checks, valued in excess of
                          $310,000, that were intended for payment of DoD contractors. The
                          checks were given to co-conspirators involved in the scheme that
                          included opening fraudulent business accounts at several banks,
                          depositing the stolen checks into those accounts and attempting to
                          withdraw from the accounts using false identification. This
                          investigation was conducted jointly by the DCIS and the U.S. Secret
                          Service.

 Environment              Mine Safety Appliances, Incorporated (MSA), Pittsburgh,
                          Pennsylvania, pled no contest to an information that charged the
                          company with one count of illegal storage of hazardous waste and
                          was assessed a $350,000 fine and $200 special assessment. A joint
                          DCIS/AFOSI/FBI/Environmental Protection Agency (EPA) inves-
                          tigation found that from about February 1991 to March 1995, MSA
                          illegally stored a mixture of pentaborane and other boron hydrides,
                          which constitute ignitable and reactive hazardous waste, at its
                          Callery Chemical Division in Evans City, Pennsylvania. These
                          products were initially produced for the Navy and Air Force in the
                          1950s as a high energy fuel for the B-70 bomber and other experi-
                          mental aircraft.

 Export Violations        Electrodyne Systems Corporation (ESC), South Hackensack, New
                          Jersey, was sentenced to 5 years corporate probation, a $1 million
                          fine and $249,900 in restitution for violating the Arms Export
                          Control Act and presenting false statements to the United States.
                          As a DoD contractor, ESC manufactured electronic components.
                          The DCIS/CIDC/NCIS/AFOSI/U.S. Customs Service investiga-
                          tion disclosed that ESC falsely represented that components used
                          in DoD prime contracts were manufactured in the United States. In
                          fact, the components were manufactured in Russia and Ukraine,

                                           29
Semiannual Report to the Congress




                                        DoD Hotline
                    Opened and Closed Cases and Total Contacts for FY 1997



           9000
           8000
           7000
           6000
           5000
           4000
           3000
          2000
           1000
               0
                    CASES OPENED        CASES CLOSED           TOTAL
                                                              CONTACTS


                                             Exhibit 5


                             prohibited countries under the Arms Export Control Act and Impor-
                             tation statutes.

HOTLINE                      The OIG, DoD continues to encourage military members, DoD
                             employees, DoD contractor employees and the public to contact the
                             DoD Hotline to report occurrences of fraud, waste and mismanage-
                             ment.

                             During this reporting period, the Hotline received 8,220 telephone
                             calls and letters, resulting in the initiation of 1,237 cases. During
                             the same period, 1,111 Hotline cases were closed (see Exhibit 5).
                             Additionally, the Hotline distributed 15,443 Hotline posters and
                             other Hotline informational materials to various DoD activities and
                             DoD contractors in our continuing effort to promote use of the DoD
                             Hotline. Since 1982, the Hotline has recovered over $391 million
                             as a direct result of investigations, inspections, inquiries or audits
                             initiated in response to information provided to the Hotline.


                                               30
                                                           Semiannual Report to the Congress



                                        Members of the Hotline staff provided six briefings
“...the failure of these devices        to classes at the Department of the Army Inspector
could prove life-threatening            General Academy, Fort Belvoir, Virginia. The
to...Service members..."                briefings are an overview of the OIG, DoD, mission,
                                        and the relationship between Military Service
                        Inspectors General and IG, DoD, and the DoD Hotline operations.
                        Also during this reporting period, the Hotline staff provided
                        assistance to the U.S. Postal Service in establishing a fraud hotline.

 Significant Hotline    An investigation by the DCIS disclosed that a defense contractor
 Complaint              encouraged employees to falsify test results as they relate to image
                        intensifier tubes (used in night-vision goggles, tank periscopes,
                        sniper scopes and other similar devices). Left unchecked, the failure
                        of these devices could prove life-threatening to the Service
                        members who depend on their reliability. The preliminary informa-
                        tion was received via the Defense Inspector General’s Hotline and
                        was assigned to DCIS for inquiry. As a result of the investigation,
                        the contractor agreed to several administrative sanctions and finan-
                        cial restitution to the U.S. Government in the amount of $2 million.




                                          31
Semiannual Report to the Congress



ADMINISTRATIVE                As highlighted in a Special Emphasis Area (page 15), the OIG
INVESTIGATIONS                conducts investigations and also performs oversight of investi-
                              gations conducted by the Military Departments: Findings are
                              provided to individual whistleblowers and their respective chains
                              of command. Those investigations pertain to:

                                    l   Allegations of reprisal against military members, Defense
                                        contractor employees and nonappropriated fund employees.

                                    l   Allegations that military members were referred for mental
                                        health evaluations without being afforded the rights pres-
                                        cribed in the DoD Directive, Mental Health Evaluations of
                                        Members of the Armed Forces.

                                    l   Noncriminal allegations against senior military and civilian
                                        officials within the DoD.

   Examples of                Exhibits 6 and 7 (page 33) show results of whistleblower reprisal
   Substantiated              activity during the period.
   Whistleblower
   Reprisal Cases
       Military Reprisal        A Navy lieutenant at the Naval Air Station, North Island, California,
                                was downgraded in his midyear performance counseling;
                                threatened with adverse consequences for failing to withdraw his
                                complaints; informally suspended from flight duty; evaluated by
                                                     the command Human Factors Council and
                                                     Human Factors Board; received a down-
 Special Inquiries and Program                       graded fitness report; told his return to flying
 Integrity Statistics                                status was contingent on submitting a
                                                     statement of support for his command;
    l During the reporting period, we                involuntarily transferred to a non-flying billet;
       opened 135 reprisal investigations            and denied reinstatement to flying status in
       and closed 140; 13 of the closed
       cases (9 percent) contained                   reprisal for making protected communications
      substantiated allegations.                     to Members of Congress, Inspectors General
                                                     and his chain of command regarding the use
    l  We closed 22 cases involving                  of unregistered computer software at his
       violation of the DoD Directive on             command.
       mental health referrals. In 5 of those
       cases, responsible officials failed to
       provide the member the required               A sergeant first class in the Active Guard/
       notification of rights, a procedural          Reserve Program, New Mexico Army
       violation of the Directive.                   National Guard, received eight adverse
                                                     personnel actions in reprisal for visiting his
    l  We opened 182 cases and closed                congressman’s office to request assistance
        198 senior official administrative
       investigations; 33 of the closed cases        regarding   a personnel action taken against
       (17 percent) contained substantiated          him. Among the actions found to be in reprisal
       allegations.                                  were two letters of reprimand, a letter of

                                                   32
                                                                                           Semiannual Report to the Congress




                              Whistleblower Reprisal Inquiries
                                By Category of Employee*
                                     Open As of September 30, 1997




    * This graph provides a breakdown of reprisal cases according to the category of
    employee who filed the complaint (Service member, nonappropriated fund employee or
    employee of a Defense contractor). In addition to the 359 reprisal cases shown here.
    Special Inquiries also had 25 open cases involving other matters, such as alleged
    improper mental health evaluations.


                                                       Exhibit 6




                 Military Whistleblower Reprisal Inquiries
                       By Office Conducting Review*
                                 Open As of September 30, 1997

    180          170

    160
    140
    120

    100

     80
                                                       61
     60                                                                                                 51
                                     33
     40

     20
                                                                          5                 6
      0
               Army                Navy             USAF              USMC             Defense     Special
                                                                                     Agencies      Inquiries



* This graph provides a breakdown of military whistleblower
reprisal inquiries according to the organization which is
conducting the inquiry. Inquiries completed by other                    Total Open Cases: 326
organizations are submitted to the Special Inquiries
Directorate for review.



                                                       Exhibit 7


                                                            33
Semiannual Report to the Congress



                             counseling, his reviewer’s nonconcurrence to his noncommissioned
                             officer evaluation report (NCOER) and recommendations to
                             separate him involuntarily from the Active Guard/Reserve
                             Program.

                             An Army Dental Corps lieutenant colonel at Fort Huachuca,
                             Arizona, received a letter of reprimand and his commander recom-
                             mended denial of his request to withdraw his retirement request in
                             reprisal for his protected communications to Members of Congress
                             and an Inspector General regarding theft of property and
                             unauthorized dental treatment.

                             An Army Reserve sergeant first class was threatened with non-
                             judicial punishment under Article 15, Uniform Code of Military
                             Justice; was removed from his audiovisual position and received
                             two reassignments and a transfer to the Individual Ready Reserve;
                             received a lowered NCOER; received a letter of reprimand; and had
                             his recommendation for award of the Army Achievement Medal
                             withdrawn in reprisal for making protected communications to
                             Members of Congress and Inspectors General.

       DoD Contractor        A DoD contractor employee was suspended from his position as
       Employee              the Manager of Quality Assurance in reprisal for reporting the
       Reprisal
                             existence of a deviation from a contract to manufacture springs for
                             the Army’s M1A1 tank to a Government official at Rock Island
                             Arsenal, Illinois.

                             An aircraft mechanic formerly employed with a DoD contractor
                             was suspended and subsequently discharged for reporting contract
                             deficiencies regarding the maintenance of a C-26B aircraft to
                             Vermont Air National Guard officials.

       Nonappropriated        A former nonappropriated fund instrumentality employee at the
       Fund Reprisal          Morale, Welfare and Recreation Department, Naval Submarine
                              Base, San Diego, California, was denied her request to withdraw
                              her resignation in reprisal for making protected communications
                              regarding mismanagement and falsification of time and attendance
                              cards to her supervisor, the Command Evaluation Office and an
                              investigating officer.

   Examples of                Exhibits 8 and 9 (page 35) show results of activity on senior official
   Substantiated Senior       cases during the period.
   Official Cases
       Misuse of              We completed two inquiries that substantiated misuse of Govern-
       Government             ment resources by senior DoD officials. In one case, we determined
       Resources              that, in arranging retirement activities for its departing director, a

                                                34
                                                                                Semiannual Report to the Congress




                                         Program Integrity
                                   Senior Official Inquiries Open
                                            As of September 30, 1997

  250
                   196
  200

  150

  100
                                                                                   63
                                                                                            36
    50                                 26                 19
                                                                         3
      0
                Army                Navy              USAF              USMC   Defense   Program
This graph provides a breakdown of senior official cases according to          Agencies Integrity
the organization which is conducting the inquiry. Inquiries completed
by other organizations are submitted to the Program Integrity
Directorate for review                                                   Total Open Cases: 343


                                                          Exhibit 8




                                            Program Integrity
 Nature of Substantiated Allegations Against Senior Officials
                                         During 2nd Half FY 1997




              Total Cases: 198                                 Substantiated: 33
                                                          Exhibit 9



                                                               35
Semiannual Report to the Congress



                              DoD agency improperly provided Government vehicles for trans-
                              portation to private events and used DoD employees to plan those
                              events. In addition, we found that the retiring director was presented
                              gifts and mementos that were fabricated using Government
                              resources costing over $3,000. Although we determined that the
                              violations of ethics regulations were not deliberate, we recom-
                              mended that responsible senior officials reimburse the Government
                              for costs incurred. Further, we recommended that the DoD agency
                              strengthen its policies and procedures concerning Government
                              support to ceremonial activities.

                              In the second inquiry, we found that a senior DoD official used a
                              Government vehicle and driver for transportation to an awards
                              dinner that was held to honor a family member. Although we
                              determined that the DoD official attended the dinner in a personal,
                              rather than official capacity, we concluded that the incident did not
                              constitute deliberate misuse. Nevertheless, we recommended that
                              the DoD official provide reimbursement to the Government.

       Air Force Safety       In response to a request from the Chairman and Ranking Minority
       Investigation          Member of the Senate Armed Services Committee, we conducted
                              an investigation into numerous, wide-ranging allegations that the
                              Air Force aircraft safety investigative process was mismanaged and
                              systemically flawed. As part of our investigation, we reviewed 50
                              mishap investigations and interviewed numerous DoD safety
                              experts. We concluded that Air Force safety investigations were
                              properly conducted and evidenced no attempt to cover up circum-
                              stances of the aircraft mishap. However, we recommended that, to
                              avoid the perception of command influence, the Air Force cease the
                              practice of briefing mishap investigative results to the chain of
                              command until the investigation has been completed and findings
                              issued. We also identified the need for improved training for
                              members of safety investigation boards, and recommended that the
                              Air Force Safety Center be represented on all such boards.

AUDITING                      Our auditors, and those of the Military Departments, issued a total
                              of 315 audit and evaluation reports during this period. See
                              Appendix A for a listing of these reports, sorted by major subject
                              area. Appendices B and C list reports containing monetary benefits
                              and our audit followup activities, respectively.




                                                36
                                                           Semiannual Report to the Congress



AUDIT POLICY AND        The OIG develops policy for, and monitors the performance of, the
OVERSIGHT               DoD audit community and ensures the DoD’S appropriate use of
                        non-Federal auditors. The following are examples of reviews
                        conducted during this period.

  Requests for          An evaluation found that 65 percent of the requests for field pricing
  Field Pricing Audit   audit support was unnecessary. Sufficient pricing information was
  support               available from the cognizant contract administration office or the
                        audit office for contracting officers to evaluate the reasonableness
                        of cost or pricing data without additional pricing or audit support.
                        The report includes nine recommendations to the Under Secretary
                        of Defense for Acquisition and Technology to reduce the number
                        of unnecessary audit requests to the DCAA. The Under Secretary
                        concurred or partially concurred with 7 of the 9 recommendations.

  Single Audit          The Inspector General Act of 1978 requires that the Inspector
  Program               General take appropriate steps to assure that work performed by
                        non-Federal auditors complies with the standards established by the
                        Comptroller General. The overall objective of the Single Audit
                        Program is to reduce the audit burden on the agencies and institu-
                        tions while ensuring that Government funds are properly accounted
                        for and expended. We received 197 single audit reports from state
                        and local governments, universities and nonprofit organizations
                        that received DoD assistance and awards. We conducted 15 desk
                        reviews of organizations for which the DoD has cognizance or
                        oversight responsibilities to assure the audit reports meet applicable
                        requirements. We conducted quality control reviews and issued 19
                        reports that focused on the qualitative aspects of the audit. Our
                        reviews also covered the work of the DCAA when it participates
                        with the independent public accountants in performing coordinated
                        single audits. We identified findings that included: required opinion
                        not rendered; inadequate documentation of sampling; incomplete
                        management representation letters; lack of specific training in
                        governmental auditing; and insufficient reviews of subrecipient
                        monitoring.

                        Exhibit 10 (page 38) illustrates statistics of DCAA audit reports
                        issued during the period.




                                          37
Semiannual Report to the Congress



                                 CONTRACT AUDIT REPORTS ISSUED                     1


                                                ($000 in millions)
                                       Reports                                     Audit             Funds Put to
             Type of Audit             Issued                Examined            Exceptions           Better Use
 Incurred Costs                                19,545                $58,870.4          $1,147.4              $188.92
Forward Pricing Proposals                       6,743                 39,173.3                -              2,166.1
Cost Accounting Standards                       2,494                    199.4              36.5                     -

 Defective Pricing3                             1,054                        0             141.7                     -

    Other4                                         18                        0                -                      -

Total                                          29,854                $98,243.1           $1,325.6           $2,355.0
1
  Because of limited time between availability of management information system data and legislative reporting
requirements, there is minimal opportunity for the DCAA to verify the accuracy of reported data. Accordingly,
submitted
2
            data is subject to change based on subsequent DCAA authentication.
3
  Incurred cost funds put to better use are from the cost avoidance recommended in operations audits.
  Defective pricing dollars examined are not reported because they are considered a duplication of forward pricing
dollars
4
         reported as examined.
  Relates to suspected irregular conduct cases.

                                                        Exhibit 10



CRlMlNAL                           The OIG develops criminal investigative policy for the DoD law
INVESTIGATIVE                      enforcement community. In addition to conducting case-based and
POLICY AND                         general oversight, the Criminal Investigative Policy and Oversight
OVERSIGHT                          staff is responsible for management of the DoD Voluntary
                                   Disclosure Program.

      Voluntary                    The DoD Voluntary Disclosure Program encourages contractors to
      Disclosure                   disclose potential criminal or civil fraud that may affect their
      Program                      contractual relationship with the DoD or the contractor’s responsi-
                                   bility under Federal Acquisition Regulations. Since its inception in
                                   1986, the Voluntary Disclosure Program has received 381 dis-
                                   closures. There have been three corporate convictions, and 53
                                   individuals have been convicted on the basis of disclosures. One
                                   contractor has been debarred. The Government has recouped
                                   $385.1 million in criminal, civil and administrative recoveries as a
                                   result of the program. During the reporting period, five new dis-
                                   closures were received, nine disclosures were accepted, and the
                                   Department received $3.79 million in recoveries.

                                   The following are examples of voluntary disclosures that resulted
                                   in not only monetary payments to the Government, but actions by
                                   contractors to improve their business practices and prevent recur-
                                   rence of the problems.

                                                          38
                                                              Semiannual Report to the Congress



                             l   A Defense contractor disclosed that some of its independent
                                 sales agents had represented themselves as small businesses
                                 in order to make higher priced direct sales to the DoD. The
                                 company entered into a settlement agreement with the DoJ
                                 and paid $891,000 to the Government. The company also
                                 instituted changes in its management processes to reduce the
                                 possibility of fraud committed within its workforce.

                             l   A Defense contractor disclosed that it had mischarged costs
                                 on a DoD contract. The company entered into a civil settle-
                                 ment agreement with the DoJ and paid the Government
                                 $139,585. The company also instituted corrective action to
                                 reduce the potential for recurrence of similar types of mis-
                                 charging. The company took disciplinary action against 11
                                 of its employees.

                             l   A Defense contractor disclosed that it had mischarged DoD
                                 in connection with repair contracts. The company entered
                                 into a civil settlement agreement with the DoJ and paid the
                                 Government $222,280. The company also took disciplinary
                                 action against employees involved in the mischarging and
                                 instituted remedial measures to prevent the recurrence of
                                 such mischarging.

INTELLIGENCE              The DoD is faced with reduced military spending and a continuing
REVIEW                    demand for U.S. presence overseas. The overseas multilateral
                          commitment of forces has increased the need for improved joint
                          planning and execution. This increase in force presence, combined
                          with a decrease in available resources, has placed greater demands
                          on the intelligence assets that can provide critical data to our
                          information dependent, technology-oriented combat force. The
                          OIG plays an important role in ensuring that these resources are
                          used effectively and efficiently. The following are examples of
                          significant Intelligence Review reports issued during this period.

  Joint Audit of Real     This joint effort by the Inspectors General of the DoD, National
  Estate and Real         Security Agency, and National Reconnaissance Office (NRO) was
  Property Holdings at    part of a series of audits of real estate and real property holdings at
  a Selected Field Site   locations requested by the Senate Select Committee on Intelligence.
                          The auditors found that real estate and real property management
                          at the field site audited was generally effective. However, the
                          auditors found that field site personnel could improve the accuracy
                          of property records and made several recommendations in this
                          regard.



                                            39
Semiannual Report to the Congress



   Actions Taken to           The evaluation was performed in response to a June 28, 1996,
   Implement                  President’s Intelligence Oversight Board Report on Guatemala. The
   Guatemala Review           overall evaluation objective was to assess the implementation of the
   Recommendations            President’s Intelligence Oversight Board’s recommendations
                              affecting the DoD. The IG, DoD, concluded the DoD has met the
                              intent of the Board’s recommendations.

   NRO Payment of             The purpose of this joint Inspectors General, DoD, Central Intelli-
   Incentive Fees             gence Agency, and NRO assessment was to determine if the practice
   Under Specialized          of the NRO attempting to ensure successful on-orbit performance
   Incentive Contracts        by paying an incentive fee during a satellites construction violates
                              the statutory prohibition on making advance payments. The
                              auditors found that payments constitute advance payments, which
                              generally are prohibited by 31 U.S.C. Section 3324, unless other-
                              wise authorized and approved.

CLASSIFIED                    Additional information on the intelligence-related audits,
ANNEX                         evaluations, investigations and special reviews can be found in
                              Appendix A and in a classified annex to the Semiannual Report.




                                                40
Appendix A                                                                               Semiannual Report to the Congress


                          APPENDIX A*
   REPORTS ISSUED BY CENTRAL DOD INTERNAL AUDIT ORGANIZATIONS


 Excludes base level reports issued by the Air Force Audit Agency. Includes evaluation reports issued by the IG, DoD
 Evaluation reports are indicated by an asterisk next to the report number.
 Copies of reports may be obtained from the appropriate issuing office by calling:
             OIG, DoD                                  Army Audit Agency
             (703) 604-8937                            (703) 681-9863
             Naval Audit Service                       Air Force Audit Agency
             (703) 681-9126                            (703) 696-8027




                          Summary of Number of Reports by Issue Area
                              April 1, 1997 - September 30, 1997

                                                     IG, DoD              Military Depts                   Total

 Acquisition Oversight                                      27                           16                    43

 Finance and Accounting                                     35                           57                    92

 Construction and Installation                              15                           24                    39

 Forces Management                                           0                           13                    13

 Logistics                                                  16                           30                    46

 Information Technology                                      9                           13                    22

 Quality of Life                                             1                            8                     9

 Environment                                                3                            10                    13

 Intelligence                                               16                            7                    23

 Health Care                                                 4                            6                    10

 Security Assistance                                         2                            0                     2
 Other                                                       3                            0                     3
 Total                                                    131                        184                      315
 The IG, DoD, issued 29 reports on audit and criminal investigative oversight reviews.




*Fulfills requirements of 5 U.S.C., Appendix 3, Section 5(a)(6)


                                                            A-1
Semiannual Report to the Congress                                                                   Appendix A


Acquisition Program and               97-180 Weapon System Supporta-        Naval Audit Service
Contractor Oversight                  bility for Wheeled, Tracked, and
                                      Amphibious Vehicles in the Marine     032-97 Grounds Maintenance
                                      Corps (6/30/97)                       Contracts at Navy Public Works
IG, DoD                                                                     Center, Norfolk, VA (4/25/97)
PO 97-039* Evaluation of the          97-185 The Marine Corps Quanti-
                                      tative Requirements for Hellfire      047-97 F-14 Aircraft Modification
Acquisition Audit Process (7/30/97)                                         and Maintenance Program Model
                                      Missiles (CLASSIFIED) (7/7/97)
PO 97-056 Defense Hotline                                                   (9/3/97)
Allegations Concerning Contract       97-197 Transition of Army Missile
Audit Recommendation (9/29/30)        Acquisition Programs From Program     Air Force Audit Agency
                                      Management Offices to Commodity
PO 97-057* Followup Evaluation of     Commands (7/28/97)                    95064001 B-2 Transition to the
the Defense Contract Audit Agency                                           Active Force (4/10/97)
Support to Special Access Programs    97-198 University Research
                                      Initiative Program (7/28/97)          96064011 Controls Over the Use of
(FOUO) (9/30/97)                                                            the International Merchant Purchase
PO 97-058 DoD Requests for Field      97-199 The Minuteman III              Authorization Card (8/11/97)
Pricing Audit Support (9/30/97)       Guidance Replacement Program
                                      (7/29/97)                             96064012 Acquisition of
97-120 Advanced Concept                                                     Educational Services and Training
Technology Demonstrations (4/7/97)    97-204 Undefinitized Contractual      (5/6/97)
                                      Actions (8/15/97)
97-121 The Navy Value Engineering                                           96064013 Contracting for Architec-
Program (4/9/97)                      97-207 Contracting Officer Price      tural and Engineering Services
                                      Analysis (8/26/97)                    (8/22/97)
97-127 Supportability Planning for
Systems Provided to the Army          97-209 Summary Audit Report on        96064021 Contracting for
Reserve (4/14/97)                     DoD Value Engineering Programs        Contractor-Operated Civil
                                      (8/26/97)                             Engineering Supply Store (8/11/97)
97-133 Acquisition and Exploitation
of Foreign Materiel by DoD            97-214 Live-Fire Test and Evalua-     96064028 F-22 Program Manage-
Components (CLASSIFIED)               tion of Major Defense Systems         ment During Engineering and
(4/21/97)                             (9/9/97)                              Manufacturing Development
                                                                            (7/22/97)
97-135 Contract for Rotary Sweeper    97-218 Component Breakout of the
Broom Refills for Airport Snow        Advanced Medium Range Air-to-Air      96064030 Full Scale Aerial Target
Removal (4/25/97)                     Missile (9/22/97)                     Acquisition and Logistics Support
                                                                            Planning (9/1/97)
97-138 Requirements Planning and      97-219 Lessons Learned From
Impact on Readiness of Training       Acquisitions of Modified Commer-      96064034 Laboratory and Test
Simulators and Devices (4/30/97)      cial Items and Nondevelopmental       Center Advisory and Assistance
                                      Items (9/23/97)                       Services (8/28/97)
97-144 Defense Special Weapons
Agency Procurements Through the       Army Audit Agency
                                                                            96066008 Software Developmental
Department of Energy (5/21/97)                                              Test and Evaluation Deficiency
                                      AA 97-183 Heavy Assault Bridge        Reporting Process (7/11/97)
97-145 Purchasing of Commercial       Program (5/5/97)
Products (5/23/97)                                                          Construction and Installation
                                      AA 97-184 Quantitative Require-       Support
97-157 Hotline Allegations            ments for the Multiple Integrated
Concerning Contract Pricing of        Laser Engagement System 2000,
Advanced Medium Range Air-to-Air                                            IG, DoD
                                      U.S. Army Training Support Center
Missiles (6/10/97)                    (4/28/97)                             97-139 Defense Base Realignment
97-165 Procurement of M4 Carbines                                           and Closure Budget Data for the
                                      AA 97-205 Incorporating
(6/17/97)                                                                   Realignment of Grissom Air Reserve
                                      MANPRINT Into Weapon Systems
                                                                            Base, Indiana (5/2/97)
                                      Development (6/10/97)
97-172 Acquisition of the Joint
Standoff Weapon System (6/20/97)                                            97-142 Unaccompanied Enlisted
                                      AA 97-271 Review of Vendor Pay
                                                                            Personnel Housing Requirements for
                                      Initiative, Fort Drum (7/23/97)
97-174 The Army Quantitative                                                Marine Corps Base, Camp
Requirements for Attack and           AA 97-268 Army’s Small Computer       Pendleton, California (5/9/97)
Reconnaissance Helicopters            Program, U.S. Army Communica-
(CLASSIFIED) (6/23/97)                tions-Electronics Command (8/15/97)



                                                       A-2
Appendix A                                                                      Semiannual Report to the Congress


97-146 Report on Military               97-191 Defense Base Realignment         AA 97-217 U.S. Army Materiel
Construction for the Renovation of      and Closure Budget Data for the         Command Efficiencies - Closure of
Unaccompanied Personnel Housing         Realignment of Undergraduate Pilot      the European Redistribution Facility
at Lackland Air Force Base, Texas       Training from Reese Air Force Base,     (5/30/97)
(5/22/97)                               Texas, to Laughlin Air Force Base,
                                        Texas (7/18/97)                         AA 97-219 Base Realignment and
97-149 Defense Base Realignment                                                 Closure 1995 Savings, U.S. Army
and Closure Budget Data for Naval       97-200 Defense Base Realignment         Forces Command, Fort Pickett
Air Station, Jacksonville, Florida      and Closure Budget Data for the         (6/30/97)
(6/2/97)                                Realignment of Onizuka Air Station,
                                        California, to Falcon Air Force Base,   AA 97-220 Base Realignment and
97-158 Use of Energy Conservation       Colorado (7/30/97)                      Closure 1995 Savings, U.S. Army
Measures in the Design of New                                                   Forces Command, Fort Indiantown
Military Facilities (6/11/97)           97-221 Defense Base Realignment         Gap (6/30/97)
                                        and Closure Budget Data for the
97-161 Defense Base Realignment         Closure of the Stratford Army           AA 97-225 Base Realignment and
and Closure Budget Data for the         Engine Plant, Stratford, Connecticut    Closure 1995 Savings Estimates
Realignment of Undergraduate Pilot      (9/30/97)                               (7/31/97
Training From Reese Air Force Base,
Texas, to Vance Air Force Base,                                                 AA 97-226 Base Realignment and
                                        Army Audit Agency                       Closures 1995 Construction Require-
Oklahoma (6/13/97)
                                                                                ments, 5th Readiness Group, Travis
                                        AA 97-155 Base Realignment and          Air Force Base, California (6/30/97)
97-162 Defense Base Realignment
                                        Closure 1995 Savings, Seneca Army
and Closure Budget Data for the
                                        Depot (4/2/97)                          AA 97-227 Base Realignment and
Relocation of the Fleet Hospital
Support Office to Cheatham Annex,                                               Closures 1995 Construction Require-
                                        AA 97-165 Troop and Family              ments, Headquarters 6th U.S. Army
Williamsburg, Virginia (6/16/97)        Housing Furnishings, U.S. Army          Recruiting Brigade, Nellis Air Force
                                        Training Center and Fort Jackson        Base (6/30/97)
97-164 Defense Base Realignment
                                        (4/1/97)
and Closure Budget Data for the
Realignment of the System Program                                               AA 97-228 Base Realignment and
                                        AA 97-166 Troop and Family              Closures 1995 Construction Require-
Office from McClellan Air Force         Housing Furnishings, Assistant
Base, California, to Wright-Patterson                                           ments, DOD Television-Audio
                                        Chief of Staff for Installation         Support Activity, McClellan Air
Air Force Base, Ohio (6/18/97)          Management (4/1/97)                     Force Base (6/30/97)
97-169 Defense Base Realignment         AA 97-171 Base Realignment and
and Closure Budget Data for Naval                                               AA 97-229 Wastewater Treatment
                                        Closure 1995 Savings, Savanna           Services, Fort Ritchie, Maryland
Hospital Bremerton, Washington          Army Depot Activity (4/30/97)
(6/19/97)                                                                       (6/13/97)
                                        AA 97-179 Base Realignment and          AA 97-251 Base Realignment and
97-179 Defense Base Realignment         Closure 1995 Savings, Sierra Army
and Closure Budget Data for the                                                 Closures 1995 Construction Require-
                                        Depot (4/30/97)                         ments, Executive Systems Software
Relocation of Deployable Medical
Systems to Hill Air Force Base,         AA 97-186 Base Realignment and          Directorate, U.S. Army Garrison and
Ogden, Utah (6/26/97)                   Closure 1995 Savings, U.S. Army         Fort George G. Meade (6/30/97)
                                        Military District of Washington, Fort   AA 97-258 Base Realignment and
97-184 Defense Base Realignment         Ritchie (6/11/97)
and Closure Budget Data for the                                                 Closure 1995 Construction Require-
Realignment of Naval Surface            AA 97-191 Base Realignment and          ments, Fort Ritchie Military Police
Warfare Center Annapolis,               Closure 1995 Construction Require-      Company (7/14/97)
Maryland, to Naval Surface Warfare      ments, U.S. Army Intelligence           AA 97-289 Base Realignment and
Center, Philadelphia, Pennsylvania      Center and Fort Huachuca, and U.S.      Closure 1995, Reserve Component
(7/1/97)                                Army Garrison and Fort Detrick          Enclave, Fort Totten, New York
                                        (8/18/97)                               (9/26/97)
97-189 Defense Base Realignment
and Closure Budget Data for the         AA 97-193 Base Realignment and          AA 97-755 Housing Options -
Realignment of Certain Functions        Closure 1995 Savings, U.S. Army         Korea, Eighth U.S. Army (6/16/97)
from Kelly Air Force Base, Texas, to    Training and Doctrine Command,
Brooks Air Force Base, Texas            Fort Chaffee (6/30/97)
                                                                                Air Force Audit Agency
(7/14/97)
                                        AA 97-197 Base Realignment and
                                        Closure 1995 Savings, U.S. Army         96052005 Cooperative Agreements
                                        Training and Doctrine Command,          at Closed Air Force Bases (4/28/97)
                                        Fort McClellan (6/30/97)                96052032 Closed Installations
                                                                                Utility and Vendor Payments (5/2/97)

                                                         A-3
Semiannual Report to the Congress                                                                      Appendix A


97052028 Vision 21 - Internal          97052025 Underground Storage           97-151 The Fund Balance With
Control Plan (5/12/97)                 Tank Environmental Compliance          Treasury Account for the Research,
                                       (8/25/97)                              Development, Test and Evaluation
Environment                                                                   Appropriation, Department 97
                                       Finance and Accounting                 (6/4/97)
IG, DoD                                                                       97-153 Marine Corps Reserve
                                       IG, DoD                                Financial Reports on the National
97-118* Evaluation of Environ-
mental Measures of Merit (4/7/97)      97-122 Inspector General, DoD,         Guard and Reserve Equipment
                                       Oversight of the Air Force Audit       Appropriation (6/9/97)
97-137* Evaluation of Sierra Army      Agency Audit of the FY 1996 Air
Depot Groundwater Contamination                                               97-155 Internal Controls and
                                       Force Consolidated Financial           Compliance With Laws and Regula-
(4/29/97)                              Statements (4/10/97)                   tions for the FY 1996 Financial
97-208 Management of Under-            97-123 Inspector General, DoD,         Statements of the “Other Defense
ground Storage Tanks at Fort Bragg     Oversight of the Army Audit Agency     Organizations” Receiving Depart-
(8/26/97)                              Audit of the Army Financial State-     ment 97 Appropriations (6/11/97)
                                       ments for Fiscal Years 1996 and        97-156 DoD Support for the 1996
Army Audit Agency                      1995 (4/10/97)                         Paralympics and Centennial Olympic
AA 97-182 Eliminating Hazardous        97-124 Inspector General, DoD,         Games (6/9/97)
Material in Weapon Systems,            Oversight of the Naval Audit Service   97-159 Inventory Accuracy at the
Program Executive Officer for          Audit of the Fiscal Year 1996 Navy     Defense Depot, Susquehanna,
Ground Combat and Support              General Fund (4/10/97)                 Pennsylvania (6/12/97)
Systems and U.S. Army Armament
Research, Development and              97-125 Inspector General, DoD,         97-160 Financial Accounting for the
Engineering Center (4/11/97)           Oversight of the Army Audit Agency     Chemical Agents and Munitions
                                       Audit of the US Army Corps of          Destruction, Defense Appropriation
AA 97-190 Non-Stockpile Chemical       Engineers, Civil Works Program, FY     (6/13/97)
Materiel Project, Aberdeen Proving     1996 Financial Statements (4/10/97)
Ground, Maryland (5/12/97)                                                    97-163 Financing Computer
                                       97-126 FY 1997 Budget for the          Systems and Other Equipment at the
AA 97-194 Recycling Program,           Domestic Dependent Elementary and      Defense Contract Management
U.S. Army Training Center and Fort     Secondary Schools (4/11/97)            Command (6/16/97)
Jackson (5/23/97)
                                       97-128* Evaluation of DoD Civilian     97-171 Internal Controls and
AA 97-236 Management of                Pay Outsourcing Study (FOUO)           Compliance With Laws and Regula-
Hazardous Material, III Corps and      (4/15/97)                              tions for the FY 1996 Financial
Fort Hood (6/23/97)                                                           Statements of the Defense Security
                                       97-129 Financial Accounting at the
AA 97-273 Recycling Program            On-Site Inspection Agency (4/15/97)    Assistance Agency (6/19/97)
(8/15/97)                                                                     97-176 Internal Controls and
                                       97-131 Financial Management at the
                                       Department of Defense Education        Compliance With Laws and Regula-
Naval Audit Service                                                           tions for the National Defense
                                       Activity (4/17/97)
                                                                              Stockpile Transaction Fund Financial
043-97 Selected Defense Environ-                                              Statements for FY 1996 (6/25/97)
                                       97-132 Security Assistance and
mental Restoration Account
                                       International Programs Account
Expenditures at the Pacific Division                                          97-177 Internal Controls and
                                       (4/18/97)
Naval Facilities Engineering                                                  Compliance With Laws and Regula-
Command (6/20/97)                      97-136 Defense Accounting Office       tions for the DoD Military
                                       Compliance With Personal Check         Retirement Trust Fund Financial
Air Force Audit Agency                 Cashing Procedures (4/28/97)           Statements for FY 1996 (6/25/97)
96052019 Pollution Prevention          97-140 Financial Management at the     97-178 Internal Controls and
Program (5/5/97)                       American Forces Information            Compliance With Laws and Regula-
                                       Service (5/7/97)                       tions for the Defense Business
96052039 Environmental Cleanup at                                             Operations Fund Consolidated
Bases Selected for Closure (4/7/97)    97-141 Financial Management at the     Financial Statements for FY 1996
                                       Uniformed Services University of       (6/26/97)
97052012 Followup Audit-Air            the Health Sciences (5/9/97)
Force Hazard Communication
Program (8/14/97)                      97-148 Defense Logistics Agency
                                       Actions to Improve Property, Plant,
                                       and Equipment Financial Reporting
                                       (5/29/97)

                                                        A-4
Appendix A                                                                      Semiannual Report to the Congress

97-182 Internal Controls and            AA 97-146 Army’s Principal              AA 97-221 Financial Management
Compliance With Laws and                Financial Statements for Fiscal Years   in Sensitive Organizations
Regulations for the DoD Consoli-        1996 and 1995, Financial Reporting      (Classified) (9/30/97)
dated Financial Statements for FY       of Wholesale Asset Balances
1996 (6/30/97)                          (6/13/97)                               AA 97-231 Corps of Engineers
                                                                                Financial Management System
97-194* Evaluation of Management        AA 97-147 Army’s Principal              (6/31/97)
Controls at the Disbursing Office,      Financial Statements for Fiscal Years
Naval Surface Warfare Center,           1996 and 1995, Financial Reporting      AA 97-283 Army Working Capital
Dahlgren, Virginia (7/23/97)            of Asset Values (7/28/97)               Fund, Supply Management, FY 97
                                                                                Financial Statements, U.S. Army
97-195 Management Controls of           AA 97-148 Army’s Principal              Missile Command (8/25/97)
Administrative Operations at the        Financial Statements for Fiscal Years
U.S. Mission to the North Atlantic      1996 and 1995, Financial Reporting      AA 97-293 Army Working Capital
Treaty Organization, Brussels,          of Government-Furnished Property        Fund FY 97 Financial Statements,
Belgium (7/24/97)                       (9/30/97)                               Rock Island Arsenal (9/26/97)

97-201 Navy and Marine Corps            AA 97-149 Army’s Principal              AA 97-311 Army’s Principal
Reserve Financial Reports on the        Financial Statements for Fiscal Years   Financial Statements for Fiscal Years
National Guard and Reserve              1996 and 1995, Financial Reporting      1996 and 1995, Financial Reporting
Equipment Appropriation (7/30/97)       of Real Property, Natural Resources,    of Government-Furnished Propetty,
                                        and Leases (9/30/97)                    U.S. Army Industrial Operations
97-202 Financial Reporting of                                                   Command (9/30/97)
Government Property in the Custody      AA 97-150 Army’s Principal
of Contractors (8/4/97)                 Financial Statements for Fiscal Years   AA 97-774 Corps of Engineers
                                        1996 and 1995, Financial Reporting      Financial Management System
97-203 Application Controls Over        of Retail Equipment (9/30/97)           (9/29/97)
the Defense Joint Military Pay
System Reserve Component (FOUO)         AA 97-151 Army’s Principal              Naval Audit Service
(8/15/97)                               Financial Statements for Fiscal Years
                                        1996 and 1995, Financial Reporting      029-97 Department of the Navy
97-212 FY 1996 DoD Superfund            of National Guard Items (9/30/97)       Fiscal Year 1996 Annual Financial
Financial Transactions (9/14/97)                                                Report: Report on Internal Controls
                                        AA 97-153 Army’s Principal              and Compliance with Laws and
97-215 Reporting of Accounts            Financial Statements for Fiscal Years
Payable for the National Guard and                                              Regulations (4/15/97)
                                        1996 and 1995, Financial Reporting
Reserve Equipment Appropriation on      of Accounts Payable (8/27/97)           033-97 Naval Air Warfare Center
the “Other Defense Organizations”                                               Flight Hour Rates (4/29/97)
Portion of the FY 1996 Financial        AA 97-155 Army’s Principal
Statements (9/18/97)                    Financial Statements for Fiscal Years   035-97 Trends in Department of the
                                        1996 and 1995, Selected Liabilities     Navy Financial Audits (5/12/97)
97-223 Recording and Reporting          (9/30/97)
Expenses of the Defense                                                         039-97 Validation of Selected
Commissary Agency (9/30/97)             AA 97-172 FY 96 Army Defense            Requisition Obligations in the
                                        Business Operations Fund Financial      Standard Accounting and Reporting
97-224 Presentation of Accrued          Statements, Followup Issues (4/7/97)    System (5/29/97)
Annual Leave in the FY 1996
Defense Agency Financial                AA 97-174 Materiel Returns, Eighth      040-97 Fiscal Year 1996 Consoli-
Statements of the Defense Business      U.S. Army (4/7/97)                      dating Financial Statements of the
Operations Fund (9/30/97)                                                       Department of the Navy Defense
                                        AA 97-176 FY 96 Army Defense            Business Operations Fund (6/16/97)
97-225 Major Deficiencies               Business Operations Fund Financial
Preventing Favorable Audit              Statements, Supply Management,          044-97 Military Sealift Command
Opinions on the FY 1996 DoD             Eighth U.S. Army Korea (4/7/97)         Civilian Mariner Payroll (7/16/97)
General Fund Financial Statements
(9/30/97)                               AA 97-181 Installation Costs and        045-97 Department of the Navy
                                        Performance Measures, U.S. Army         Fiscal Year 1996 Annual Financial
                                        Kwajalein Atoll/Kwajalein Missile       Report: Accounts Receivable, Net
Army Audit Agency                                                               (8/12/97)
                                        Range, Republic of the Marshall
AA 97-145 Army’s Principal              Islands (4/23/97)
                                                                                046-97 Department of the Navy
Financial Statements for Fiscal Years                                           Fiscal Year 1996 Annual Financial
                                        AA 97-188 FY 96 Army Defense
1996 and 1995, Report on Internal                                               Report: Government Property Held
                                        Business Operations Fund Financial
Controls and Compliance With Laws                                               by Contractors (8/14/97)
                                        Statements, Summary Report
and Regulations (6/30/97)
                                        (5/16/97)


                                                        A-5
 Semiannual Report to the Congress                                                                     Appendix A


048-97 Department of the Navy          96058005 Controls Over Noncapi-        97058018 Confidential Investigative
Fiscal Year 1996 Annual Financial      talized Property and Equipment         Contingency Funds, Fiscal Years
Report: Ammunition and Ashore          (5/6/97)                               1995 and 1996 (4/16/97)
Inventory (9/25/97)
                                       96066029 Application Controls
049-97 Department of the Navy          Within the Comprehensive Engine         Forces Management
Fiscal Year 1996 Annual Financial      Management System (7/11/97)
Report: Advances and Prepayments,                                             Army Audit Agency
Non-Federal (9/19/97)                  96068001 Selected Asset, Liability,
                                       and Expense Accounts Depot             AA 97-198 Reporting Civilian Full
051-97 Department of the Navy          Maintenance Service Business Area,     Time Equivalent and Related Cost
Fiscal Year 1996 Annual Financial      Fiscal Year 1996 (8/20/97)             Information (5/23/97)
Report: Property, Plant, and
                                       96068003 Selected Expense              AA 97-202 Workload-Based
Equipment, Net (9/25/97)
                                       Accounts, Airlift Services Division,   Manpower Requirements Program,
                                       Transportation Service Activity        U.S. Army Training and Doctrine
Air Force Audit Agency                                                        Command (5/30/97)
                                       Group, Fiscal Year 1996 (7/11/97)
96051026 Third Party Collection                                               AA 97-215 Controlling Institutional
Program (7/18/97)                      96068004 Estimated Repair Prices
                                       (6/18/97)                              Training Equipment Costs, U.S.
96051046 Third Party Liability                                                Army Field Artillery Center and Fort
                                       96068011 Air Force Defense             Sill (7/21/97)
Program (6/30/97)
                                       Business Operations Fund Cash
96053002 Military Equipment,           Management and Property, Plant,        AA 97-235 Controlling Institutional
Fiscal Year 1996 Air Force             and Equipment, Fiscal Year 1996        Training Equipment Costs, U.S.
Consolidated Financial Statements      (7/30/97)                              Army Training and Doctrine
(5/29/97)                                                                     Command (7/22/97)
                                       96068012 Inventory Accounts,
96053003 Fund Control Process,         Supply Management Activity Group,      AA 97-263 Force Design, Develop-
Fiscal Year 1996 Air Force Consoli-    Fiscal Year 1996 (6/18/97)             ment, and Approval (8/6/97)
dated Financial Statements (9/08/97)                                          AA 97-272 Recruiting Operations,
                                       96068013 Sales and Accounts
96053004 Civilian Pay, Fiscal Year     Receivable, Supply Management          U.S. Army Recruiting Command
1996 Air Force Consolidated            Business Area, Fiscal Year 1996        (8/18/97)
Financial Statements (4/17/97)         (5/27/97)                              AA 97-286 Digitization of the
96053005 Operating Materials and       96068016 Controls Over Stock           Battlefield, Advanced Warfighting
Supplies, Fiscal Year 1996 Air Force   Control and Distribution System        Experiments (9/16/97)
Consolidated Financial Statements      Data Modification (8/21/97)            AA 97-296 Orient Shield 97, U.S.
(5/30/97)                                                                     Army Japan and 9th Theater Army
                                       97053011 Eliminating Entries and
96053006 Weapon System Progress        Nonoperating Changes, Fiscal Year      Area Command (9/16/97)
Payments, Fiscal Year 1996 Air         1996 Air Force Consolidated            AA 97-297 North Wind 97, U.S.
Force Consolidated Financial           Financial Statements (4/15/97)         Army Japan and 9th Theater Army
Statements (7/03/97)                                                          Area Command (9/16/97)
                                       97053012 Contingent Liabilities,
96053015 Military Pay, Fiscal Year     Fiscal Year 1996 Air Force Consoli-    AA 97-298 Yama Sakura XXXI,
1996 Air Force Consolidated            dated Financial Statements (4/10/97)   U.S. Army Japan and 9th Theater
Financial Statements (4/15/97)                                                Army Area Command (9/30/97)
                                       97053013 Invested Capital, Fiscal
96053017 Government Furnished          Year 1996 Air Force Consolidated       AA 97-305 Implementation of
Property, Fiscal Year 1996 Air Force   Financial Statements (5/29/97)         Workload-Based Manpower Require-
Consolidated Financial Statements                                             ments Program, U.S. Army Materiel
(8/04/97)                              97054014 General and Application
                                       Controls Within the Consolidated       Command (9/30/97)
96053019 Real Property and             Analysis and Reporting System
Nonmilitary Equipment, Fiscal Year     (6/02/97)                              Naval Audit Service
1996 Air Force Consolidated                                                   034-97 Implementation of
                                       97054033 Preliminary Audit
Financial Statements (6/20/97)
                                       Assessment for the Fiscal Year 1997    Computer- Based Training in the
96054012 Work Information              Annual Statement of Assurance on       Navy (4/29/97)
Management System Real Property        the Status of Internal Controls
Module (4/23/97)                       (9/12/97)




                                                       A-6
Appendix A                                                                   Semiannual Report to the Congress

Air Force Audit Agency                97-152 Corporate Executive             96054027 Data Communications
                                      Information System (6/6/97)            Security (4/15/97)
97058002 Air Combat Maneuvering
Instrumentation Pods and Test Sets    97-154 Functional Transfer of Navy     96066002 Managing Software
(8/4/97)                              Base Communications Offices            Development Data and Information
                                      (6/11/97)                              (6/18/97)
Health Care
                                      97-167* Joint Communications           96066004 Air Force Software
                                      Support Element (6/19/97)              License Management (5/30/97)
IG, DoD
                                      97-187 Communications Capability       96066026 Air Force Satellite
97-143 Followup Audit of the Aero-    Within the DoD to Support Two          Control Network (7/22/97)
medical Evacuation System (5/19/97)
                                      Major Regional Conflicts Nearly
                                      Simultaneously (CLASSIFIED)            97066032 Followup Audit-Cost
97-147 Reporting Graduate Medical                                            Reimbursement of Software Support
Education Costs (5/23/97)             (7/14/97)
                                                                             Provided to Non-Air Force Organi-
97-150* Economic Impact of            97-188 Management Controls Over        zations (9/19/97)
Alcohol Misuse in DoD (6/2/97)        Automated Data Processing Equip-
                                      ment at the North American Aero-       Intelligence
97-170 Medical War Reserves for       space Defense Command and U.S.
U.S. Forces, Korea (CLASSIFIED)       Space Command (7/14/97)                IG, DoD
(6/19/97)
                                      97-206 Defense Finance and             PO 97-016* Evaluation of DoD
Army Audit Agency                     Accounting Service Acquisition         Support to the National Drug
                                      Strategy for a Joint Accounting        Intelligence Center (4/30/97)
AA 97-143 Mental Health Care          System Initiative (8/22/97)
Delivery System, Brooke Army                                                 PO 97-017 Followup on National
Medical Center (4/10/97)              97-216 Security Over Networks          Reconnaissance Office Financial
                                      used to Transmit U.S. Special          Management Practices
AA 97-185 Mental Health Care          Operations Command Financial Data      (CLASSIFIED) (6/13/97)
Delivery System, William Beaumont     (9/18/97)
Army Medical Center (4/21/97)                                                PO 97-021 Tom Victor
                                      Army Audit Agency                      (CLASSIFIED) (6/9/97)
AA 97-189 Compliance With
Acquisition Policy, U.S. Army         AA 97-214 Information Systems          PO 97-026 Report on the Investiga-
Health Care Systems Support           Security Program (6/30/97)             tion of a Potential Antideficiency
Activity (5/12/97)                                                           Act Violation at the National
                                      Naval Audit Service                    Security Agency (6/15/97)
AA 97-224 Mental Health Care
Delivery System, Dewitt Army          028-97 Management of Naval             PO 97-028 Joint Audit of Real
Community Hospital, Fort Belvoir,     Telecommunications Services in the     Estate and Real Property Holdings at
Virginia (6/19/97)                    Norfolk, VA Area (4/14/97)             a Selected Field Site (CLASSIFIED)
                                                                             (6/27/97)
AA 97-276 Mental Health Care          036-97 Telephone and Internet
Delivery System, U.S. Army            Services at Naval Air Warfare Center   PO 97-030 Defense Human Intelli-
Medical Command (8/22/97)             Aircraft Division, Patuxent River,     gence Systems (CLASSIFIED)
                                      Maryland (5/27/97)                     (6/26/97)
Air Force Audit Agency                                                       PO 97-031 Measurement and
                                      041-97 Management and Use of
97051025 Air National Guard           Navy Cellular Telephones (6/9/97)      Signature Intelligence (6/30/97)
Medical Training Program (8/13/97)                                           PO 97-040* Evaluation of Allega-
                                      Air Force Audit Agency                 tions Concerning the Naval Criminal
Information Technology                                                       Investigative Service Investigation of
Resources                             96054018 Air Force Bulletin Boards     Battlespace, Incorporated (FOUO)
                                      and Home Pages (4/29/97)               (8/11/97)
IG, DoD                               95054021 Automated Data Proces-        PO 97-041 Information Security
PO 97-039* Evaluation of the          sing Equipment Accountability          Equipment Maintenance and Depot
Acquisition Audit Process (7/30/97)   (4/30/97)                              Operations (FOUO) (8/20/97)
97-119 Consolidation of Naval         96054023 Fiber Optics (5/21/97)        PO 97-044 Actions Taken to Imple-
Activities Providing Telephone        96054025 Private Branch Exchange       ment Guatemala Review Recommen-
Services in the Pacific Region        Maintenance (4/7/97)                   dations (FOUO) (9/19/97)
(4/4/97)


                                                      A-7
Semiannual Report to the Congress                                                                        Appendix A

PO 97-045* Evaluation Report on         Logistics                              Army Audit Agency
Dispositioned Defective Pricing
Audit Reports at the Warner Robins                                             AA 97-192 Management of Equip-
                                        IG, DoD                                ment in Tables of Distribution and
Air Logistics Center (9/24/97)
                                        97-130 Coding Munitions List Items     Allowances, U.S. Army Armor
PO 97-046* Evaluation Report on         (4/16/97)                              Center and Fort Knox (5/8/97)
Defense Contract Audit Agency
Audits of Requests for Equitable        97-134 Disposal of Munitions List      AA 97-213 Followup Audit of Air-
Adjustment (9/24/97)                    Items in the Possession of Defense     craft Maintenance, U.S. Army Air
                                        Contractors (4/22/97)                  Defense Artillery Center and Fort
PO 97-048 Tom Victor                                                           Bliss (6/27/97)
(CLASSIFIED) (9/24/97)                  97-168* Disposal of Serviceable
                                        Reparable Assets (6/19/97)             AA 97-233 Total Asset Visibility,
PO 97-049 DoD Management of                                                    U.S. Army, Europe and Seventh
Information Assurance Efforts to        97-173 Management and                  Army (6/30/97)
Protect Automated Information           Administration of International
Systems (CLASSIFIED) (9/25/97)          Agreements in the U.S. Pacific         AA 97-255 Initial Mandatory Parts
                                        Command (CLASSIFIED) (6/23/97)         Lists for the Patriot Missile System
PO 97-050 National Reconnais-                                                  (7/10/97)
sance Office Payment of Incentive       97-175 Management of the DoD
Fees Under Specialized Incentive        Personal Property Shipment and         AA 97-260 Low-Dollar-Value
Contracts (CLASSIFIED) (9/29/97)        Storage Program (6/23/97)              Requisitions (9/15/97)

PO 97-053 Management of                 97-181 U.S. Navy Aircraft              AA 97-264 Reporting Process for
Conventional Signals Intelligence       Corrosion Prevention and Control       the Theft or Loss of Army Arms,
Collection Sites (CLASSIFIED)           Program (6/30/97)                      Ammunition, and Explosives
(9/30/97)                                                                      (7/25/97)
                                        97-183 Uncataloged Material at
PO 97-060 Review of DoD Hotline         Research, Development, Test, and       AA 97-269 Management of Equip-
Allegations Regarding Operation         Evaluation Installations (6/30/97)     ment in Tables of Distribution and
CARRIBEAN CRUISE                                                               Allowances, U.S. Army Training and
(CLASSIFIED) (9/30/97)                  97-190* Defense Hotline Allega-        Doctrine Command (8/11/97)
                                        tions on Improper Sale and Disposal
                                        of Pallets (7/17/97)                   AA 97-287 Property Accountability,
Army Audit Agency                                                              Center of Military History (8/28/97)
                                        97-192 European Theater C-9A
AA 97-117 Property Accountability       Aircraft Flying Hour Program           AA 97-290 Center Operations,
(CLASSIFIED) (5/21/97)                  (7/18/97)                              Center of Military History (9/30/97)
AA 97-173 Audit of Special Pay          97-205 Dual Management of              AA 97-291 Property Exchange
(CLASSIFIED) (5/23/97)                  Commercially Available Items -         Transactions, Center of Military
                                        Defense Logistics Agency Electronic    History (9/30/97)
AA 97-180 Acquisition Planning -
Phase II (CLASSIFIED) (4/15/97)         Catalog Pilot Program (8/15/97)        AA 97-292 Ammunition Manage-
                                        97-211 Management of the U.S.          ment, 7th Special Forces Group
AA 97-209 Financial Management                                                 (Airborne), Fort Bragg, North
of Limited User Test II Funds for the   Army Center for Military History
                                        Exchange-for-Services Agreement        Carolina (9/12/97)
Hunter Unmanned Aerial Vehicle
Program (6/13/97)                       (8/28/97)                              AA 97-303 U.S. Army Materiel
                                        97-213* Evaluation of the Disposal     Command Efficiency-Operations and
Air Force Audit Agency                                                         Support Cost Reductions (9/26/97)
                                        of Munitions Items (9/5/97)
96058036 Air Force Application of                                              AA 97-304 U.S. Army Materiel
National Foreign Intelligence           97-217 Chemical and Biological
                                        Defense Readiness (CLASSIFIED)         Command Efficiencies-Administra-
Program Funds (CLASSIFIED)                                                     tive/Production Leadtime (9/26/97)
(9/19/97)                               (9/19/97)
                                        97-220 Savings Methodology and         AA 97-306 Unit-Level Logistics
97058014 Status of Resources and                                               System-Ground, 3d Infantry Division
Training System Reporting for           Benefits of Direct Vendor Deliveries
                                        and Just-in-Time Inventory             (Mechanized) and Fort Stewart
Intelligence Units (7/31/97)                                                   (9/26/97)
                                        Management Initiatives (9/24/97)
97058017 Intelligence Contingency
Funds, Fiscal Years 1995 and 1996       97-222 Conditional Donation of an      Naval Audit Service
(6/20/97)                               F-4D Aircraft (9/30/97)
                                                                               026-97 Survival and Wearout Rate
                                        97-226 Consumable Item Transfer,       Computations for Depot Level
                                        Phase II, Management (9/30/97)         Repairables at the Naval Inventory
                                                                               Control Point (4/4/97)

                                                         A-8
Appendix A                                                                Semiannual Report to the Congress


027-97 Management, Control, and      Army Audit Agency                    PO-97-019 Allegations of
Accounting Procedures for Sponsor                                         Inappropriate Action on Contracting
Material at Naval Sea Systems        AA 97-245 Selected Financial         Issues by Government Officials
Command Warfare Centers (4/11/97)    Controls - Morale, Welfare and       Hughes Danbury Optical Systems
                                     Recreation Activities, I Corps and   (5/20/97)
052-97 Dehumidified Preservation     Fort Lewis (6/30/97)
of Aircraft (9/29/97)                                                     PO-97-020 Procurement of Single
                                     AA 97-257 Officers Club, III Corps   Audits by Recipients of Federal
                                     and Fort Hood (6/30/97)              Awards (5/22/97)
Air Force Audit Agency
                                     AA 97-285 Selected Financial         PO-97-022 KPMG Peat Marwick,
95061032 Requirements for Low or     Controls - Morale, Welfare and
No Failure Items (8/21/97)                                                LLP Applied Physics Laboratory of
                                     Recreation Activities, Tooele Army   Johns Hopkins University, Fiscal
96061002 Manually-Computed           Depot (8/29/97)                      Year Ended June 30, 1995 (6/18/97)
Readiness Spares Package Require-    A 97-748 Family Advocacy
ments (4/16/97)                                                           PO-97-023 KPMG Peat Mat-wick,
                                     Program, U.S. Army, Europe and       LLP Corporation of Mercer
96061004 Other War Reserve           Seventh Army (5/28/97)               University, Fiscal Year Ended
Materiel to Support Wartime Depot                                         June 30, 1995 (6/30/97)
Repair (6/19/97)                     Naval Audit Service
                                                                          PO-97-027 Coopers & Lybrand,
96061008 Propulsion Requirements     031-97 Navy Exchange Service         LLP Woods Hole Oceanographic
System Spare Engine Computations     Command Freight Traffic Manage-      Institution, Fiscal Year Ended
(4/9/97)                             ment for Overseas Shipments          December 31, 1995 (6/23/97)
                                     (4/25/97)
96061011 Mobility Bags (6/16/97)                                          PO-97-029 KPMG Peat Marwick,
                                     042-97 Audit of Inventory Manage-    LLP Great Lakes Composites
96061023 Funding For Fuel            ment at Navy Exchange, San Diego,    Consortium, inc., Fiscal Year Ended
Facilities Maintenance and Repair    California (6/13/97)                 December 31, 1995 (6/25/97)
(5/13/97)
                                     Air Force Audit Agency               PO-97-032 Defense Contract Audit
96061024 Estimated Usage Rates                                            Agency Sampling Initiative of
for Recoverable Items (8/21/97)      96051030 Lodging Operations          Incurred Cost Proposals on
96061025 Asset Shipments Outside     (4/29/97)                            Low-Risk Contractors (6/27/97)
of Supply Control (7/2/97)           96051035 Air Force Services          PO-97-033 Price Waterhouse, LLP
97058001 Consumable War Reserve      Vehicle Management (4/15/97)         Shaw University, Fiscal Year Ended
Materiel in the Pacific Air Forces                                        June 30, 1993 through 1995 (6/27/97)
(9/2/97)                             Security Assistance
                                                                          PO-97-034 Grant Thornton, LLP
97061001 Standard Base Supply                                             Georgia Tech Research Corporation,
                                     IG, DoD                              Fiscal Year Ended June 30, 1995
System Data Interfaces (8/11/97)
                                     97-210 Technology Transfer Under     (6/30/97)
97062010 Followup Audit-Job          the F-151 Program (8/27/97)
Routed Repair of Recoverable                                              PO-97-035 Coopers and Lybrand,
Engine Items (5/19/97)               97-227 Foreign Military Sales        LLP The Charles Stark Draper
                                     Administrative Surcharge Fund        Laboratory, Inc., Fiscal Year Ended
97062021 Followup Audit-Local        (9/30/97)                            June 30, 1995 (6/30/97)
Manufacturing at the Air Logistics
Centers (7/3/97)                                                          PO-97436 Deloitte & Touche, LLP
                                     Audit and Criminal                   Oregon Graduate Institute of Science
97062022 Followup Audit-             lnvestigative Oversight              and Technology, Year Ended June
Management of Base Repair Cycle                                           30, 1996 (6/30/97)
Assets (8/19/97)
                                     IG, DoD                              PO-97-037 Coopers and Lybrand,
Quality of Life                                                           LLP Corporation for National
                                     PO-97-015 Evaluation of Program      Research Initiatives, Fiscal Year
                                     Evaluation Advisory Type Services    Ended December 31, 1995 (6/30/97)
IG, DoD                              by Internal Audit Organizations
                                     (4/18/97)                            PO-97-038 Ernst & Young, LLP
97-166* Ready Reserve Mobiliza-
                                                                          South Carolina Research Authority,
tion Income Insurance Program        PO-97-018 Coopers and Lybrand,       Fiscal Year Ended June 30, 1995
(6/18/97)                            LLP Wentworth Institute of           (6/30/97)
                                     Technology, Fiscal Year Ended
                                     June 30, 1995 (5/9/97                PO-97-039 Evaluation of the
                                                                          Acquisition Audit Process (7/30/97)

                                                      A-9
Semiannual Report to the Congress                                                                        Appendix A

PO-97-042 Leonard G. Birnbaum           PO-97-051 Ernst & Young, L.L.P.,        PO-97-057 Followup Evaluation of
and Company, L.L.P., Kestrel            Analytic Services Inc., Fiscal Year     the Defense Contract Audit Agency
Institute, Fiscal Year Ended            Ended September 30, 1995 (9/26/97)      Support to Special Access Programs
December 31, 1995 (9/15/97)                                                     (FOUO) (9/30/97)
                                        PO-97-052 Coopers and Lybrand
PO-97-043 Coopers and Lybrand,          L.L.P., Ben Franklin Technology         PO-97-058 DoD Requests for Field
L.L.P., The Mitre Corporation, Fiscal   Center of Southeastern Pennsylvania,    Pricing Audit Support (9/30/97)
Year Ended September 30, 1994           Fiscal Year Ended August 31, 1996
(9/15/97)                               (9/26/97)                               PO-97-059 KPMG Peat Marwick,
                                                                                L.L.P., Audit of Battelle Memorial
PO-97-045 Evaluation Report on          PO-97-054 Coopers & Lybrand,            Institute, Fiscal Year Ended
Dispositioned Defective Pricing         L.L.P., Worcester Polytechnic           December 31, 1995 (9/30/97)
Audit Reports at the Warner Robins      Institute, Fiscal Year Ended June 30,
Air Logistics Center (9/24/97)          1996 (9/30/97)                          Other
PO-97-046 Evaluation Report on          PO-97-055 Clausell & Associates
Defense Contract Audit Agency           and Deloitte & Touche, L.L.P., Clark    IG, DoD
Audits of Requests for Equitable        Atlanta University, Fiscal Year         97-186 Review of Military and
Adjustment (9/24/97)                    Ended June 30, 1996 (9/29/97)           Civilian Personnel Assignments to
PO-97-047 Legislative Audit             PO-97-056 Defense Hotline               Congress (7/14/97)
Bureau of the State of Wisconsin-       Allegations Concerning Contract         97-193* Joint Warfighting Center
Madison, Fiscal Year Ended June 30,     Audit Recommendation (9/26/97)          (7/18/97)
1995 (9/25/97)
                                                                                97-196 Personnel Security in the
                                                                                Department of Defense (7/25/97)




               Our report on the status of OIG, DoD reports over 12 months old
               in which management decisions have been made but final action
               has not been taken has been provided to the Department and is
               available upon request.




                                                        A-10
Appendix B                                                                Semiannual Report to the Congress



                              APPENDIX B*
          INSPECTOR GENERAL, DOD AUDIT REPORTS ISSUED CONTAINING
                 QUANTIFIABLE POTENTIAL MONETARY BENEFITS
                                                                           Potential Monetary Benefits
                                                                                ($ in thousands)
                                                                            Disallowed   Funds Put to
                      Audit Reports Issued                                     Costs 1    Better Use
 97-126 FY 1997 Budget for the Domestic Dependent Elementary and                   N/A              $5,100
 Secondary Schools (4/11/97)
 97-129 Financial Accounting at the On-Site Inspection Agency                      N/A               4,600
 (4/15/97)
 97-131 Financial Management at the Department of Defense                          N/A               7,300
 Education Activity (4/17/97)
 97-138 Requirements Planning and Impact on Readiness of Training                  N/A             209,300
 Simulators and Devices (4/30/97)
 97-139 Defense Base Realignment and Closure Budget Data for the                   N/A                 563
 Realignment of Grissom Air Reserve Base, Indiana (5/2/97)
 97-143 Followup Audit of the Aeromedical Evacuation System                        N/A              68,300
 (5/19/97)
 97-144 Defense Special Weapons Agency Procurements Through the                    N/A              19,300
 Department of Energy (5/21/97)
 97-146 Report on Military Construction for the Renovation of                      N/A               4,600
 Unaccompanied Personnel Housing at Lackland Air Force Base,
 Texas (5/22/97)
 97-149 Defense Base Realignment and Closure Budget Data for Naval                 N/A               3,000
 Air Station Jacksonville, Florida (6/2/97)
 97-157 Hotline Allegations Concerning Contract Pricing of Advanced                N/A              41,100
 Medium Range Air-to-Air Missiles (6/10/97) (FOUO)
 97-158 Use of Energy Conservation Measures in the Design of New                   N/A              27,300
 Military Facilities (6/11/97)
 97-160 Financial Accounting for the Chemical Agents and Munitions                 N/A               1,665
 Destruction, Defense Appropriation (6/13/97)
 97-164 Defense Base. Realignment and Closure Budget Data for the                  N/A               2,500
 Realignment of the System Program Office from McClellan Air Force
 Base, California, to Wright-Patterson Air Force Base, Ohio (6/18/97)
 97-188 Management Controls Over Automated Data Processing                         N/A              25,200
 Equipment at the North American Aerospace Defense Command and
 U.S. Space Command (7/14/97)
 97-189 Defense Base Realignment and Closure Budget Data for the                   N/A                 250
 Realignment of Certain Functions from Kelly Air Force Base, Texas,
 to Brooks Air Force Base, Texas (7/14/97)
 97-192 European Theater C-9A Aircraft Flying Hour Program                         N/A              20,100
 (7/18/97)
 97-200 Defense Base Realignment and Closure Budget Data for the                   N/A                 416
 Realignment of Onizuka Air Station, California, to Falcon Air Force
 Base, Colorado (7/30/97)
 97-211 Management of the U.S. Army Center for Military History                    N/A               2,100
 Exchange-for-Services Agreement (8/28/97)
  Totals                                                                                          $442,694
 *Fulfills
 1
           the requirement of 5 U.S.C., Appendix 3, Section 5(a)(6).
   There were no OIG audit reports during the period involving disallowed costs.




                                                      B-1
Semiannual Report to the Congress                                   Appendix B




                               This page left blank intentionally




                                              B-2
Appendix C                                                                 Semiannual Report to the Congress



                                             APPENDIX C*
                                         FOLLOWUP ACTIVITIES
          DECISION STATUS OF INSPECTOR GENERAL ISSUED REPORTS
         WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE’
                              ($ in thousands)
                                                                                              Funds Put to
                            Status                                    Number                   Better Use
 A.      For which no management decision had been made by                          41             $2,761,753
         the beginning of the reporting period.
 B.      Which were issued during the reporting period.                            113                442,694
        Subtotals (A+B)                                                            154               3,204,447
 C.     For which a management decision was made during                            113               2,808,658
        the reporting period.
        (i) dollar value of recommendations that were agreed                        -                   81,775
             to by management
              - based on proposed management action                                 -                   81,775
              - based on proposed legislative action                                -                        0
        (ii) dollar value of recommendations that were not
             agreed to by management                                                -                2,726,883 2
 D.     For which no management decision has been made by                              41              395,789
        the end of the reporting period.
        Reports for which no management decision was made                               3                    0
       within 6 months of issue.
 1

 2
    There were no OIG audit reports during the period involving questioned costs.
    On certain reports with audit estimated monetary benefits of $368 million, it has been agreed that the
 resulting
  3
            monetary benefits can only be estimated after completion of management action, which is ongoing.
    OIG Reports 97-084, “Reimbursable Orders Issued to the Naval Undersea Warfare Center, Keyport,
 Washington,” 1/29/97; 97-090, “Electronic Commerce Resource Centers” 2/11/97; and 97-100, “Asset
 Presentation on Military Department General Fund Financial Statements” 2/25/97. These three reports are
 now decided. The Military Departments report no undecided internal audit reports over 6 months old.


                   STATUS OF ACTION ON CENTRAL INTERNAL AUDITS
                                  ($ in thousands)
                                                  Number of             Questioned             Funds Put to
              Status of Action                     Reports                Costs                 Better Use
 IG, DoD
      Action in Progress - Beginning of Period                 244                       -         $ 304,839
      Action Initiated - During Period                         113                       -           2,808,658
                                                                                                                   1
      Action Completed - During Period                         106                       -             109,159
                                                                                                                   2
  Action in Progress - End of Period                           251                       -             308,161
 Military Departments
      Action in Progress - Beginning of Period                 407                       -           7,255,010
   Action Initiated - During Period                            194                       -          1,343,716
   Action Completed - During Period                            201                       -            1,498,660
    Action in Progress - End of Period                          400                      -            7,236,827
 1
   In addition, $1,047 billion in monetary benefits was not agreed to by management, but DoD management or
 the
 2
      Congress took actions that resulted in the monetary benefits being realized.
   Does not include the $368 million referenced in the table above pertaining to actions on which there is
 agreement that an estimate of monetary impact at this point is infeasible,

 *Fulfills requirements of 5 U.S.C., Appendix 3, Section 5(a)(8)(9) and Section 5(b)(2)(3).


                                                      C-1
Semiannual Report to the Congress                                   Appendix C




                               This page left blank intentionally




                                              C-2
This report is available on the Internet at:
       www.dodig.osd.mil

Additional information on or copies of this report may be
obtained by writing or contacting:

       Paul Allison          703-604-9785; DSN 224-9785

       Inspector General, Department of Defense
       Office of the Assistant Inspector General for Administration
              and Information Management
       Administration and Resources Acquisition Directorate
       Policy Review and Reports Office, Room 415
       400 Army Navy Drive
       Arlington, Virginia 22202-2884
